APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
————
No. 18-16396
————
MARY RIGGS, as Personal Representative of the
ESTATE OF JONATHAN NEIL UDALL, for the benefit of
the ESTATE OF JONATHAN NEIL UDALL, and
PHILIP AND MARLENE UDALL as Next of Kin and
Natural Parents of JONATHAN NEIL UDALL, deceased,
Plaintiff-Appellee,
v.
AIRBUS HELICOPTERS, INC.,
Defendant-Appellant,
v.
MATTHEW HECKER; DANIEL FRIEDMAN; BRENDA
HALVORSON; GEOFFREY EDLUND; ELLING B.
HALVORSON; JOHN BECKER; ELLING KENT HALVORSON;
LON A. HALVORSON; SCOTT BOOTH; PAPILLON
AIRWAYS, INC., DBA Papillon Grand Canyon
Helicopters; XEBEC LLC,
Defendants-Appellees.
————
Argued and Submitted February 14, 2019
San Francisco, California
Filed September 20, 2019
————
OPINION
————

2a
RAWLINSON, Circuit Judge:
Appellant-Defendant Airbus Helicopters, Inc. (AHI)
appeals the district court’s order granting motions to
remand to state court. AHI contended that it properly
removed this case to federal district court pursuant to
28 U.S.C. § 1442(a)(1) (§ 1442(a)(1)). According to AHI,
the district court erroneously determined that AHI did
not satisfy the “acting under” requirement of § 1442(a)(1).
Reviewing de novo, we affirm the judgment of the
district court.
I. BACKGROUND
In February, 2018, John Udall, a resident of the
United Kingdom, was killed in a helicopter crash while
touring the Grand Canyon. The helicopter (Crashed
Helicopter) was owned and operated by several of the
Hecker Defendants1 and manufactured by AHI.
Plaintiff-Appellee Mary Riggs (Riggs) filed this action
in Nevada state court against AHI and the Hecker
Defendants, alleging that the Crashed Helicopter was
defectively designed because the fuel tank was not
crash-resistant, and could not withstand an impact of
a minimal or moderate nature without bursting into
flames and engulfing the passenger compartment.2
AHI removed the case to federal district court,
asserting § 1442(a)(1) as the basis for removal. That
provision permits removal to federal court of an action
against “any officer (or any person acting under that
1

The named Hecker Defendants are: Matthew Hecker, Daniel
Friedman, Brenda Halvorson, Geoffrey Edlund, Elling B.
Halvorson, John Becker, Elling Kent Halvorson, Lon A.
Halvorson, Scott Booth, and Papillon Airways, Inc., DBA Papillon
Grand Canyon Helicopters, and Xebec LLC.
2

In this appeal, the Hecker Defendants are DefendantsAppellees whose interests are aligned with the interests of Riggs.

3a
officer) of the United States or of any agency thereof,
in an official or individual capacity, for or relating to
any act under color of such office.” 28 U.S.C. § 1442(a)(1).
Riggs and the Hecker Defendants separately moved to
remand the case to Nevada state court, on the basis
that AHI did not meet the requirements of § 1442(a)(1).
While the motions to remand were pending before
the district court, AHI moved to dismiss the lawsuit
pursuant to Federal Rule of Civil Procedure 12(b)(2)
and (b)(6).3
The district court granted Hecker and Riggs’s motions
to remand. Noting that we have not directly addressed
§ 1442(a)(1) removal based on an FAA delegation, the
district court relied primarily on the Seventh Circuit
decision of Lu Junhong v. Boeing Co., 792 F.3d 805
(7th Cir. 2015) addressing an almost identical situation.
After applying the reasoning set forth in Lu Junhong,
the district court ruled that AHI failed to meet the
“acting under” requirement of § 1442(a)(1) because
AHI’s activities “pursuant to its [Federal Aviation
Administration] delegation are rule compliance rather
than rule making.”
II. STANDARD OF REVIEW
“We review de novo a district court’s decision to
remand a removed case . . .” Corona-Contreras v. Gruel,
857 F.3d 1025, 1028 (9th Cir. 2017) (citation omitted).
III. DISCUSSION
Before turning to the issue before us, we first review
the statutory framework that sets the stage for our
decision.
3

Because we affirm the district court’s order granting the
motions to remand, AHI’s motion to dismiss is now moot.

4a
Congress has charged the Federal Aviation
Administration (FAA) with regulating aviation safety
in the United States pursuant to the Federal Aviation
Act, 49 U.S.C. § 40101, et seq. See Martin ex rel.
Heckman v. Midwest Exp. Holdings, Inc., 555 F.3d
806, 808 (9th Cir. 2009). Pursuant to this authority,
the FAA promulgated the Federal Aviation Regulations
(FARs). See 14 C.F.R. § 1.1 et. seq. Standards for certification of helicopters, such as the Crashed Helicopter,
are set forth in 14 C.F.R. § 27.1.
After demonstrating compliance with the FARs,
an aircraft owner may obtain a certificate from the
FAA approving the aircraft’s design. See 49 U.S.C.
§ 44704(a)(1); 14 C.F.R. §§ 21.21, et. seq. The FAA
requires a supplemental type certificate (Supplemental
Certificate) for any design changes to a type-certificated aircraft. See 49 U.S.C. § 44704(b). Therefore, AHI
could make no design change to the Crashed Helicopter
absent the issuance of a Supplemental Certificate.
To help ameliorate the effect of the FAA’s limited
resources, 49 U.S.C. § 44702(d)(1) provides that the
FAA “may delegate to a qualified private person . . . a
matter related to–(A) the examination, testing, and
inspection necessary to issue a certificate under this
chapter; and (B) issuing the certificate.” The Eighth
Circuit has described this delegation approach as a
means of “reducing governmental costs [and] eas[ing]
the burden of regulation on the aviation community by
expediting the issuance of requested certifications.”
Charlima, Inc. v. United States, 873 F.2d 1078, 1081
(8th Cir. 1989).
Pursuant to 49 U.S.C. § 44702(d)(1), the FAA
instituted the Organization Designation Authorization
(Designation) program to delegate to organizations,
such as AHI, the FAA’s authority to inspect aircraft

5a
designs and issue certifications. See 14 C.F.R. § 183.41.
An FAA Designation “allows an organization to perform
specified functions on behalf of the Administrator related
to engineering, manufacturing, operations, airworthiness,
or maintenance.” 14 C.F.R. § 183.41(a). In 2009, AHI
became an FAA-certified Designation holder with authority to issue Supplemental Certificates.4
The ongoing dispute in this appeal is whether
AHI satisfies the “acting under” prong of § 1442(a)(1).
AHI contends that it was formally delegated legal
authority from the FAA, and that this delegation
establishes that it was acting under the federal
government for purposes of § 1442(a)(1). As an FAA
delegee, AHI asserts that it does more than merely
comply with federal law–it assists in carrying out the
FAA’s duties. Acknowledging that it does not make or
promulgate federal law, AHI argues that the district
court erroneously relied on the holding from the
Seventh Circuit requiring entities to demonstrate a
engagement in rule-making rather than rule compliance to satisfy the “acting under” requirement of
§ 1442(a)(1).
As a private party, AHI must demonstrate that it
was “involved in an effort to assist, or to help carry
out, the duties or tasks of the federal superior” to
satisfy the “acting under” requirement of § 1442(a)(1).
4

The dissent references the recent crashes of the Boeing 737
Max to support the argument that Boeing is authorized to selfcertify the safety of its fleet. See Dissenting Opinion, p. 992 n.2.
However, in the aftermath of the tragic crashes, it became clear
that the FAA was calling the shots, not Boeing. See Luz Lato,
Michael Laris, Lori Aratani and Damian Paletta, Democracy Dies
in Darkness, Washington Post (March 13, 2019) (reporting that
the FAA grounded the 737 Max planes after a “recommendation”
from Boeing).

6a
Fidelitad, Inc v. Insitu, Inc., 904 F.3d 1095, 1099 (9th
Cir. 2018) (citation and internal quotation marks
omitted). The pivotal question then is whether AHI
was assisting the FAA to carry out the FAA’s duties or
whether AHI was “simply complying with the law,”
which would not bring it within the scope of § 1442(a)(1).
Id. at 1100.5
In Watson v. Philip Morris Cos., Inc., 551 U.S. 142,
145–47, 127 S.Ct. 2301, 168 L.Ed.2d 42 (2007), the
United States Supreme Court addressed § 1442(a)(1)
in the context of a defendant tobacco company’s
contentions that its close working relationship with
a federal agency that directed and monitored its
activities constituted conduct that satisfied the “acting
under” requirement. Rejecting this argument, the
Court held that Philip Morris did not satisfy the
“acting under” requirement of § 1442(a)(1). Id. at 157,
127 S.Ct. 2301. In the Court’s view, Philip Morris’s
mere compliance with federal regulations did not
constitute “a statutory basis for removal.” Id. at 153,
127 S.Ct. 2301 (“A private firm’s compliance (or noncompliance) with federal laws, rules, and regulations
does not by itself fall within the scope of the statutory
phrase ‘acting under’ a federal official.”). According to
the Supreme Court, the “acting under” requirement is
not satisfied by mere compliance with a regulation
“even if the regulation is highly detailed and even if
the private firm’s activities are highly supervised and
monitored.”6 Id. The Court in Watson also noted that
5

The dissent notes that the FAA authorizes certification of
others. See Dissenting Opinion, p. 994. However, that circumstance has zero effect on the legal analysis dictated by Watson.
6

The dissent makes an effort to distinguish the controlling
effect of Watson by focusing on the delegation by the FAA of
authority to issue certificates. See Dissenting Opinion, pp. 994–

7a
Philip Morris had never been delegated legal authority
from a federal agency. See id. at 156, 127 S.Ct. 2301.
Although we have not directly addressed removal
under § 1442(a)(1) based on an FAA designation, we
have addressed removal under § 1442(a) in other
contexts. In Goncalves By & Through Goncalves v.
Rady Children’s Hosp. San Diego, 865 F.3d 1237,
1245–47 (9th Cir. 2017), we considered whether the
congressionally-authorized delegation of insurance claims
administration by the United States Office of Personnel
Management (OPM) to private insurers conferred
federal officer status upon those private insurers for
purposes of § 1442(a)(1). In Goncalves, the private
insurer placed a subrogation lien on the proceeds of a
settlement reached on behalf of Goncalves with Rady
Children’s Hospital. See id. at 1243. Goncalves filed a
motion in state court to expunge the lien, and the
private insurer removed the matter to federal court.
See id. In determining whether removal was proper,
we addressed the “acting under” provision of § 1442(a)(1).
We explained that “[f]or a private entity to be ‘acting
95. However, as the Seventh Circuit cogently observed, several
other industries, including the energy and health sectors, certify
compliance without “acting under” the regulating agencies. Lu
Junhong, 792 F.3d at 809–10. As the Seventh Circuit observed:
“We doubt that the Justices would see a dispositive difference
between certified compliance and ordinary compliance. Indeed,
Watson rejected an argument . . . that a federal agency hadn’t ‘just’
required compliance with regulations but also had ‘delegated
authority’ to the manufacturer to determine compliance with
those regulations. The [Supreme] Court thought that inadequate
to make the manufacturer a person ‘acting under’ the agency.” Id.
at 809 (quoting Watson, 551 U.S. at 154–57, 127 S.Ct. 2301). We
agree with the Seventh Circuit that the Supreme Court in Watson
did not articulate a distinction between “certified” compliance
and compliance generally. Watson, 551 U. S. at 151–52, 127 S.Ct.
2301.

8a
under’ a federal officer, the private entity must be
involved in an effort to assist, or to help carry out, the
duties or tasks of the federal superior.” Id. at 1245
(citation omitted) (emphases in the original). We noted
that the actions taken by the private entity “must
go beyond simple compliance with the law and help
officers fulfill other basic governmental tasks.” Id.
(citation and alterations omitted).
We ultimately concluded that the private insurer
was “acting under” a federal officer. Not only did the
OPM enter into a contract with the private insurer
for a negotiated fee, the contract also authorized the
insurer to pursue subrogation benefits that would
otherwise be pursued by OPM. See id. at 1246–47. But
for the actions of the private insurers, OPM would not
be reimbursed when an employee successfully pursued
a third-party for payment of healthcare expenses incurred
by the employee. See id. at 1247. OPM delegated to the
private insurer the authority to pursue subrogation
claims on behalf of the government. See id. at 1247.
Under these circumstances, we concluded that the
private insurer was “acting under” a federal officer. Id.
We reasoned that the pursuit of subrogation claims
took the private insurer “well beyond simple compliance with the law and helped [federal] officers fulfill
other basic governmental tasks. Id. (quoting Watson,
551 U.S. at 153, 127 S.Ct. 2301) (alteration and internal
quotation marks omitted).
We recently grappled with the “acting under” requirement of § 1442(a)(1) in Fidelitad, 904 F.3d 1095, and
we included a thoughtful discussion of Watson.7 In

7

Our colleague in dissent contends that the majority opinion
misapplies Watson. See Dissenting Opinion, p. 990. However,

9a
Fidelitad, a private company (Fidelitad) that sold
drones in Latin America placed orders for the drones
from a private drone manufacturer (Insitu). See id. at
1097–98. The sales in Latin America required “export
licenses from the federal government.” Id. at 1098. The
two companies subsequently had a falling out over the
provisions in the export licenses. See id. Consequently,
Fidelitad filed an action against Insitu asserting,
among other claims, that Insitu improperly delayed
shipment of Fidelitad’s order. See id. at 1097. Insitu
moved for removal under § 1442(a)(1), arguing that it
was “acting under” the federal government because it
delayed orders to Fidelitad to ensure that Fidelitad
complied with federal export laws. See id. at 1098–100.
We held that in order to invoke § 1442(a)(1) removal,
a defendant “must demonstrate that (a) it is a person
within the meaning of the statute; (b) there is a causal
nexus between its actions, taken pursuant to a federal
officer’s directions, and plaintiff’s claims; and (c) it
can assert a colorable federal defense.” Id. at 1099
(citations and internal quotation marks omitted). We
identified the “central issue” in the case as “whether
Insitu was acting pursuant to a federal officer’s directions” when denying shipment of the drones. Id.
(internal quotation marks omitted). We described the
“paradigm” of a private entity “acting under a federal
officer” as an individual “acting under the direction of
a federal law enforcement officer,” such as a private
citizen assisting in a law enforcement raid. Id. (citations and internal quotation marks omitted).
We focused on the fact that no federal officer
directed Insitu to delay the orders. See id. at 1100.
that contention completely ignores our similar analysis of Watson
in Fidelitad.

10a
Nevertheless, Insitu maintained that it was “acting
under” a federal officer because the delay was for the
purpose of ensuring compliance with the International
Traffic in Arms Regulation, 22 C.F.R. §§ 120–130,
which governs the sale of military goods to foreign
governments. See id. Citing Watson and Lu Junhong,
we reiterated that mere compliance with governing
regulations “does not bring a private actor within the
scope of the federal officer removal statute.” Id.
We explained that Watson involved allegations that
a cigarette company sold cigarettes that delivered
more tar and nicotine than advertised. See id. The
company removed the case on the basis that it was
acting under the direction of a federal officer by using
a required test protocol that was “closely monitored by
the federal government.” Id. We described the Supreme
Court as unpersuaded by the company’s position,
noting its holding that removal was not appropriate
even though “a federal agency directs, supervises, and
monitors a company’s activities in considerable detail.”
Id. (citation and internal quotation marks omitted).
According to our reading of Watson in Fidelitad, extensive “federal regulation alone” did not suffice to meet
the “acting under” requirement of § 1442(a)(1). Id. We
also observed that the Supreme Court’s rationale in
Watson counseled rejection of Insitu’s argument regarding its stated attempts to not only comply with federal
regulations, but to “also attempt[ ] to enforce specific
provisions in Fidelitad’s export licenses.” Id. We recognized the Supreme Court’s rejection in Watson of the
notion “that a company subject to a regulatory order
(even a highly complex order) is acting under a federal
officer.” Id. (quoting Watson, 551 U.S. at 152–53, 127
S.Ct. 2301) (parallel citation and internal quotation
marks omitted).

11a
Finally, in Fidelitad we acknowledged that government contractors may “act under federal officers.” Id.
(citation omitted). But, we clarified, the government
did not contract with Insitu and the regulation and
export licenses did not “establish the type of formal
delegation that might authorize Insitu to remove the
case.” Id. at 1101 (quoting Watson, 551 U.S. at 156,
127 S.Ct. 2301) (alteration omitted).
The dissent seeks to minimize the persuasive power
of Fidelitad by commenting that a different statutory
regime was involved. See Dissenting Opinion, p. 995
n.3. However, the dissent’s summary comment elides
the fact that we were confronted with the identical
issue in Fidelitad that we resolve in this case, whether
the “acting under” requirement of § 1442(a)(1) was
satisfied. The dissent also fails to grapple with the
reality that in Fidelitad, we cited with approval the
Seventh Circuit’s Lu Junhong decision. Finally, despite
criticizing the precedent cited by the majority, the
dissent did not, and cannot, cite one case from this
circuit that supports its analysis of the “acting under”
requirement. The best the dissent can muster is a case
from the Eleventh Circuit, Magnin v. Teledyne Cont’l
Motors, 91 F.3d 1424 (11th Cir. 1996), decided eleven
years prior to Watson and an argument from a Solicitor
General that was rejected by the Supreme Court. See
Dissenting Opinion, pp. 993–94.
Our analysis in Fidelitad is generally consistent
with the approach taken by the Seventh Circuit in Lu
Junhong, the case relied on by the district court. Lu
Junhong involved a dispute over the design of a plane
that broke apart during flight while landing in San
Francisco. See 792 F.3d at 807. After being initially
sued in state court, Boeing contended that it was
entitled to removal under § 1442(a)(1) because it was

12a
“acting under” the authority of the federal government, having been granted the authority by the FAA
“to use FAA-approved procedures to conduct analysis
and testing required for the issuance of type, production, and airworthiness certifications for aircraft under
Federal Aviation Regulations.” Id. at 807–08. Boeing’s
argument in Lu Junhong mirrors AHI’s posture in this
appeal.
The Seventh Circuit rejected Boeing’s argument.
See id. at 810. The court reasoned that “we know from
[Watson] that being regulated, even when a federal
agency directs, supervises, and monitors a company’s
activities in considerable detail, is not enough to make
a private firm a person “acting under” a federal
agency.” Id. at 809 (citation and internal quotation
marks omitted).
In discussing its rejection of Boeing’s argument that
it, unlike Philip Morris in Watson, possessed formal
delegation from the FAA of the authority to certify
compliance, the Seventh Circuit explained:
[T]his [authority] is still a power to certify
compliance, not a power to design the rules for
airworthiness. The FAA permits Boeing to make
changes to its gear after finding that the equipment as modified meets the FAA’s standards; it
does not permit Boeing to use gear that meets
Boeing’s self-adopted criteria.
Id. at 810 (emphasis in the original).
The Seventh Circuit interpreted Watson as requiring the delegation of “rule making” authority rather
than “rule compliance” certification to meet the “acting
under” standard. Id. The Seventh Circuit suggested
that, at a minimum, Boeing would have to be delegated “a power to issue conclusive certification of

13a
compliance.” Id. (emphasis in the original). Because
Boeing’s self-certification was not binding on either
the FAA or a reviewing court, the Seventh Circuit
determined that Boeing did not come within the
“acting under” provision of § 1442(a)(1). See id.
The district court in this case adopted the Seventh
Circuit’s “rule-making-rule-compliance” distinction in
finding that AHI was not “acting under” a FAA delegation. Although we cited Lu Junhong with approval
in Fidelitad, 904 F.3d at 1100, we notably did
not incorporate the Seventh Circuit’s rule-makingrule-compliance dichotomy. Rather, we referenced Lu
Junhong for the proposition that compliance with the
law “does not bring a private actor within the scope of
the federal officer removal statute” and neither does
delegation of authority “to self-certify compliance with
the relevant regulations.” Id. (quoting Lu Junhong,
792 F.3d at 808–10).
We are persuaded by the consistent reasoning of
Watson, Goncalves, and Fidelitad to conclude that the
district court committed no error in finding that AHI
was not “acting under” a federal officer by virtue of
becoming an FAA-certified Designation holder with
authority to issue Supplemental Certificates. AHI concedes that, as a Designation holder, it “must perform
all delegated functions in accordance with a detailed,
FAA-approved procedures manual specific to each
[Designation] holder.” (emphasis added). Language such
as “in accordance with” and “FAA-approved” suggest a
relationship based on compliance rather than assistance
to federal officers. Cf. Goncalves, 865 F.3d at 1245–46
(noting that a private insurer was “acting under” a federal
officer when it entered into a contract with a government agency to pursue third-party reimbursements).
Importantly, one of the regulations circumscribing an

14a
FAA delegee’s authority to certify provides that “each
applicant must allow the FAA to make any inspection
and any flight and ground test necessary to determine
compliance with the applicable requirements of this
subchapter.”8 14 C.F.R. § 21.33 (emphasis added). This
language explicitly denotes compliance and, as discussed, mere compliance with federal directives does
not satisfy the “acting under” requirement of § 1442(a)(1),
even if the actions are “highly supervised and monitored.” Watson, 551 U.S. at 153, 127 S.Ct. 2301; see
also Goncalves, 865 F.3d at 1245; Fidelitad, 904 F.3d
at 1100.
AHI concedes that it cannot make design changes
without approval from the FAA. At oral argument,
AHI even acknowledged that the FAA has the authority to rescind any action taken by AHI in connection
with the certification process. These facts demonstrate
that AHI was duty-bound to follow prescriptive rules
set forth by the FAA, thus falling within the “simple
compliance with the law” circumstance that does not
meet the “acting under” standard. Goncalves, 865 F.3d
at 1247; see also Fidelitad, 904 F.3d at 1100. In sum,
AHI’s actions as an issuer of Supplemental Certificates
fit squarely within the precept of mere compliance
with regulatory standards and outside the “acting
under” provision of 1442(a)(1). Watson, 551 U.S. at
153, 127 S.Ct. 2301.
We foreshadowed the outcome of this case in
Fidelitad, noting with approval the determination in
Lu Junhong, 792 F.3d at 808–10, that an “airplane
manufacturer was not acting under a federal officer . . .
8

The dissent completely disregards this language requiring
compliance with FAA regulations. See Dissenting Opinion, pp.
994–95 (denying Airbus’ compliance obligation).

15a
although federal law gave the manufacturer authority
to self-certify compliance with the relevant regulations.” 904 F.3d at 1100. In keeping with our analysis
in Fidelitad, we hold that AHI was not acting under
a federal officer although federal regulations gave
AHI authority to issue Supplemental Certificates in
accordance with FAA regulations. See id. Although we
agree generally with the holding of Lu Junhong, as we
did in Fidelitad, we decline to adopt the rule-makingrule-compliance distinction articulated by the Seventh
Circuit and relied on by the district court. See Lu
Junhong, 792 F.3d at 810. We are content to rely on
the more clearly articulated common analyses from
Watson, Goncalves, and Fidelitad focusing on whether
the private entity is engaged in mere compliance with
federal regulations. See e.g., Fidelitad, 904 F.3d at
1100.
Finally, AHI relies heavily on the district court
decision of Estate of Hecker v. Robinson Helicopter Co.,
2013 WL 5674982 (E.D. Wash. 2013). In Hecker, the
plaintiff brought an action in state court, asserting
state law claims for wrongful death, negligence, and
products liability arising from a helicopter crash. See
id. at *1. There, as here, the helicopter manufacturer
removed the case to federal court under § 1442(a)(1),
and the plaintiff moved to remand the case for lack of
jurisdiction. See id. The district court held that the
defendant’s status as a Designation holder satisfied
the “acting under” requirement. Id. at *2. However,
not only is Hecker non-binding, it was decided before
our decisions in Goncalves and Fidelitad.
IV. CONCLUSION
AHI inspected and certified its aircraft pursuant to
FAA regulations and federal law and could not make
any structural or design changes without the consent

16a
of the FAA. The Supreme Court decision in Watson
and our decisions in Goncalves and Fidelitad fully
support the proposition that AHI’s mere compliance
with federal regulations did not satisfy the “acting
under” requirement of § 1442(a)(1). We join the Seventh
Circuit in concluding that an aircraft manufacturer
does not act under a federal officer when it exercises
designated authority to certify compliance with governing federal regulations.9
AFFIRMED.

9

Because we conclude that AHI failed to meet the “acting
under” requirement of § 1442(a)(1), we need not and do not
address any other arguments advanced by the parties on appeal.
See Fidelitad, 904 F.3d at 1101 n.4.

17a
O’SCANNLAIN, Circuit Judge, dissenting:
The federal officer removal statute authorizes a
defendant in a state court civil action to remove the
case to federal court if it is “acting under” a federal
agency. 28 U.S.C. § 1442(a)(1). In this case, the Federal
Aviation Administration (“FAA”) “delegate[d]” to Airbus
Helicopters, Inc. (“Airbus”) the authority to issue
“certificates” on the agency’s behalf—certificates that
the FAA must otherwise issue on its own before an
aircraft can be lawfully flown. 49 U.S.C. §§ 44702(d)(1),
44704. Because Airbus undertakes these duties on the
FAA’s behalf, I conclude that Airbus “act[s] under” a
federal agency within the meaning of § 1442(a)(1).
I believe that our court’s contrary holding misunderstands the FAA’s regulatory regime and misapplies
the Supreme Court’s decision in Watson v. Philip Morris
Cos., 551 U.S. 142, 127 S.Ct. 2301, 168 L.Ed.2d 42 (2007).
I respectfully dissent.
I
This case turns on the interaction between two statutes: the Federal Aviation Act, see 49 U.S.C. § 40103
et seq., and the federal officer removal statute, see
28 U.S.C. § 1442.
A
1
In the Federal Aviation Act, Congress charged the
FAA with the duty to establish “minimum standards
required in the interest of safety” for the “design,
material, construction, quality of work, and performance of aircraft, aircraft engines, and propellers.”
49 U.S.C. § 44701(a)(1). The FAA promulgated (and
regularly revises) the Federal Aviation Regulations,
which delineate such standards. See 14 C.F.R. § 1.1

18a
et seq. Given the technological complexity of modern
aircraft, these safety standards dictate an aircraft’s
design from its critical components to its smallest
detail. For instance, a helicopter—or, in the FAA’s
parlance, a “rotorcraft”—must satisfy regulations
covering everything from its “landing gear” to the
“number of self-contained, removable ashtrays.” Id.
§§ 27.729, 27.853(c)(1).
Besides imposing substantive safety standards, the
Act also creates a “multistep certification process to
monitor the aviation industry’s compliance.” United
States v. S.A. Empresa de Viacao Aerea Rio Grandense
(Varig Airlines), 467 U.S. 797, 804, 104 S.Ct. 2755, 81
L.Ed.2d 660 (1984). Before an aircraft can lawfully
take flight, the FAA must issue a series of “certifications” or “certificates”—terms that the Act uses
interchangeably. The first of these is called a “type
certificate,” which the FAA “shall issue” if it finds the
aircraft “is properly designed and manufactured,
performs properly, and meets the regulations and
minimum standards prescribed [by the FAA].” 49
U.S.C. § 44704(a)(1). Then, before the manufacturer
can mass produce an approved design, it must obtain
a “production certificate.” Id. § 44704(c). To do so, the
manufacturer must show that duplicates of the design
will, among other things, “conform to the [type] certificate.” Id. Finally, the owner of each aircraft must
obtain an “airworthiness certificate” by showing that
the aircraft “conforms to its type certificate and, after
inspection, is in condition for safe operation.” Id.
§ 44704(d)(1). It is illegal to operate an aircraft without
an airworthiness certificate. See id. § 44711(a)(1).
Together, these certification requirements prohibit
a manufacturer (or the aircraft’s eventual owner)
from altering an aircraft’s design without the FAA’s

19a
approval. Instead, if a manufacturer wishes to make
changes, it must seek one of two possible certificates.
If a “proposed change . . . is so extensive that a
substantially complete investigation of compliance . . .
is required,” then the manufacturer must seek a new
type certificate from the FAA. 14 C.F.R. § 21.19. For
less significant changes, the holder of a type certificate
may seek a “supplemental type certificate.” 49 U.S.C.
§ 44704(b)(1) (emphasis added); see also 14 C.F.R.
§ 21.113. Like an ordinary type certificate, a supplemental certificate authorizes the holder then to seek
production and airworthiness certificates for the
modified design. See id. § 21.119.
2
Perhaps because of this elaborate certification process, Congress offered the FAA an unusual tool to ease
its regulatory burden: the authority to delegate its
duties to the private sector. Specifically, the Act states:
(d) DELEGATION.—(1) Subject to regulations,
supervision, and review the Administrator may
prescribe, the Administrator may delegate to a
qualified private person . . . a matter related to (A)
the examination, testing, and inspection necessary
to issue a certificate under this chapter; and (B)
issuing the certificate.”
49 U.S.C. § 44702(d)(1) (emphasis added); see also
Varig Airlines, 467 U.S. at 807, 104 S.Ct. 2755 (“[T]he
FAA obviously cannot complete this elaborate compliance review process alone. Accordingly, [the Act]
authorizes the Secretary to delegate certain inspection
and certification responsibilities to properly qualified
private persons.”).
Since 1927, the FAA and its predecessor agency
have established programs delegating its certification

20a
authority to the private sector—either to individual
engineers or to organizations. Establishment of Organization Designation Authorization Program, 70 Fed.
Reg. 59,932, 59,932 (Oct. 13, 2005) (codified at 14
C.F.R. pts. 21, 121, 135, 145, 183) [hereinafter ODA
Rule]. In 2005, the FAA exercised its authority under
§ 44702(d) to institute the Organization Designation
Authorization (“ODA”) Program, which “consolidat[es]
and improve[s]” the “piecemeal organizational delegations” previously developed. Id. at 59,933.
Under such program, the FAA authorizes “ODA
Holders” to “perform specified functions on behalf of
the Administrator.” 14 C.F.R. § 183.41. ODA Holders
act as “representatives of the Administrator,” and
when “performing a delegated function, [they] are
legally distinct from and act independent of the
organizations that employ them.” ODA Rule, 70 Fed.
Reg. at 59,933. Further, to become an ODA Holder, an
organization must sign a memorandum of understanding promising to “comply with the same standards,
procedures, and interpretations applicable to FAA
employees accomplishing similar tasks.” Federal Aviation
Administration, Organization Designation Authorization
Procedures, Order 8100.15, at A1-17 (2006) [hereinafter ODA Order].1
Since 2009, Airbus has been a “Supplemental Type
Certification ODA.” Id. ¶ 2–6, at 5. In this capacity,
Airbus has the authority to “develop and issue
1

Order 8100.15 “establishes the procedures, guidance, and
limitations of authority [the FAA] grant[s] to an organization”
under the ODA Program. ODA Order, at i. Since 2006, the FAA
has amended Order 8100.15, see Federal Aviation Administration, Organization Designation Authorization Procedures, Order
8100.15B (2018), but the 2006 version of the Order governed at
the time of the subject helicopter’s manufacture and sale.

21a
supplemental type certificates . . . and related
airworthiness certificates.” Id. Airbus may issue such
certificates both for its own aircraft or for those of
other applicants. See id. ¶ 11–7, at 88. Although the
FAA may revoke Airbus’s ODA status or reconsider
its issuance of a specific certificate, see 49 U.S.C.
§ 44702(d)(2)–(3), a certificate issued by Airbus carries
the same legal consequence as one issued by the FAA:
it gives the FAA’s formal approval to the aircraft’s
design (in the case of a supplemental type certificate)
or the aircraft itself (in the case of an airworthiness
certificate).2
B
The federal officer removal statute permits a defendant to remove to federal court a state court action
brought against
“[t]he United States or any agency thereof or any
officer (or any person acting under that officer) of
the United States or of any agency thereof, in an
official or individual capacity, for or relating to
any act under color of such office . . . .”
28 U.S.C. § 1442(a)(1) (emphasis added). In Watson,
the Supreme Court held that a person “act[s] under” a
federal officer or agency if his actions “involve an effort
to assist, or to help carry out, the duties or tasks of the
2

In the aftermath of the recent crash of the Boeing 737 Max in
Ethiopia, there seems to be some appetite on Capitol Hill to
revisit the FAA’s private-public partnership. See Thomas Kaplan,
After Boeing Crashes, Sharp Questions About Industry Regulating
Itself, N.Y. Times (Mar. 26, 2019); David Koenig & Tom Krisher,
The FAA’s Oversight of Boeing Will Be Examined in Senate
Hearings, Time (Mar. 27, 2019). But until (and unless) such proposals become law, we must apply the statute as it presently
exists.

22a
federal superior.” 551 U.S. at 152, 127 S.Ct. 2301.
Although a “private firm’s compliance . . . with federal
laws, rules, and regulations” does not itself satisfy the
statute’s “acting under” requirement, id. at 153, 127
S.Ct. 2301 (emphasis added), a formal “delegation of
legal authority” goes beyond the “usual regulator/
regulated relationship,” id. at 156–57, 127 S.Ct. 2301.
Thus, Watson counsels that the “delegation of legal
authority . . . [to act] on the Government agency’s
behalf” satisfies § 1442(a)(1)’s “acting under” requirement. Id. at 156, 127 S.Ct. 2301.
II
Because the FAA delegates to ODA Holders its
formal legal authority to issue certificates, I conclude,
in respectful disagreement with the majority’s analysis,
that Airbus “act[s] under” the FAA.
A
1
Beginning with the text, the Federal Aviation Act
compels the conclusion that the FAA delegates formal
legal authority to ODA Holders. By its own terms, 49
U.S.C. § 44702(d)(1) authorizes the FAA to “delegate”
a “matter related to” the “examination, testing, and
inspection necessary to issue a certificate” and
“issuing the certificate.” To “delegate” means to “give
part of one’s power or work to someone in a lower
position within one’s organization.” Delegate, Black’s
Law Dictionary (9th ed. 2009); see also Delegate,
Webster’s Third New International Dictionary (unabr.
ed. 1986) (“[T]o entrust to another: transfer, assign,
commit <power delegated by the people to the legislature> <one may [delegate] one’s authority to a competent
assistant>”). Congress’s use of “delegate” thus suggests
that the FAA may transfer its own formal legal powers

23a
to private persons, and the rest of the statute accords
with such interpretation. In 49 U.S.C. § 44702(a), for
instance, Congress established that the “Administrator
of the [FAA] may issue” the long list of certificates
mandated by the Act. See also 49 U.S.C. § 44704
(same). Accordingly, the responsibility to issue certificates falls in the first instance to the FAA, and it is
this authority that § 44702(d)(1) allows the agency to
“delegate.”
Confirming Congress’s mandate, the FAA itself
describes the ODA Program as a delegation of legal
authority. Under the program, ODA Holders like
Airbus function as “representatives of the Administrator” and “perform[ ] a delegated function.” ODA Rule,
70 Fed. Reg. at 59,933; see also 14 C.F.R. § 183.41
(similar). The ODA Order states that the program
“delegate[s] certain types of authority to organizations,” and that such designees “act on the FAA’s
behalf.” ODA Order, ¶ 1–1, at 1. Further, these delegees
“assist” the agency and “help carry out” its manifold
“duties [and] tasks,” Watson, 551 U.S. at 152, 127 S.Ct.
2301 (emphasis removed), because the “[d]elegation of
tasks to these organizations [allows] the FAA to focus
[its] limited resources on more critical areas,” ODA
Rule, 70 Fed. Reg. at 59,933.
Altogether, Congress and the FAA expressly said—
time and again—that the agency indeed “delegate[s]”
to private persons (like Airbus) the authority to issue
certificates, and Watson counsels that a “delegation of
legal authority” satisfies § 1442(a)(1)’s “acting under”
requirement. 551 U.S. at 154–57, 127 S.Ct. 2301. It
follows that Airbus “act[s] under” the FAA.

24a
2
I am not alone in this view. The Eleventh Circuit
came to the same conclusion in Magnin v. Teledyne
Cont’l Motors, 91 F.3d 1424 (11th Cir. 1996), and the
Solicitor General has endorsed that court’s holding. In
its briefing for Watson, the Solicitor General argued
that the defendant could not seek removal under
the federal officer removal statute (as the Supreme
Court later held), but it cited Magnin to support the
argument that “a private citizen delegated authority
to inspect aircraft by the [FAA] acts under a federal
officer in conducting such an inspection and issuing a
certificate of airworthiness.” Brief for the U.S. as
Amicus Curiae Supporting Petitioners at 26, Watson,
551 U.S. 142, 127 S.Ct. 2301. “The critical point,” the
Solicitor General continued, “is that the individual
acts on behalf of the FAA Administrator in conducting
the inspection.” Id.
B
Despite the clear evidence of delegation, the majority
concludes that Airbus’s actions as an ODA Holder
constitute mere “compliance” with FAA regulations.
See Maj. Op. at 994–95. With respect, I believe the
majority is wrong.
1
The majority’s critical error is that it conflates
Airbus’s two distinct roles as a manufacturer and as
an FAA delegee. Specifically, an ODA Holder acts as
either the regulated party or the regulator—depending
on the specific function performed. It is true, of
course, that all manufacturers—in their capacity as
manufacturers—must comply with the FAA’s numerous safety standards whenever they design or build an
aircraft. But as an ODA Holder, the organization also

25a
acts as a “representative[ ] of the Administrator.” ODA
Rule, 70 Fed. Reg. at 59,933. In this capacity, the
manufacturer is “legally distinct from” the organization, and its “authority . . . to act comes from an FAA
delegation.” Id. Put differently, the manufacturer doffs
its “aviation industry hat” and dons its “FAA hat,” and
so clad, the ODA Holder exercises the agency’s
statutory authority to issue certificates.
Perhaps because the issuance of certificates so
obviously constitutes an exercise of the FAA’s governmental power, the majority seeks to recast the ODA
Program as a “self-certification” regime. See Maj. Op.
at 988–90 (emphasis added). The majority borrows
such reasoning from Lu Junhong v. Boeing Co., where
the Seventh Circuit compared a manufacturer’s authority to issue certificates to “a person filing a tax return”
compelled to certify that he reported his income
“honestly.” 792 F.3d 805, 809 (7th Cir. 2015). Such
“certified compliance,” the court reasoned, was indistinguishable from other forms of “ordinary compliance”
deemed insufficient to satisfy § 1442(a)(1). Id. at 810.
Once again, the majority—as Lu Junhong before
it—evinces its misunderstanding of the regulatory
regime. Although an ODA Holder issuing a certificate
must ensure that the aircraft complies with the FAA’s
safety standards, the organization’s issuance of the
certificate does more; it stamps the FAA’s imprimatur
on the aircraft. In so doing, the ODA Holder exercises
a power derived from the agency and independent
from its responsibilities as a manufacturer. Indeed,
the FAA authorizes ODA Holders like Airbus to issue
certificates “to an applicant other than the ODA
Holder”—thus confirming that such power cannot be
reduced to self-certification. ODA Order, ¶ 11–6, at 88
(emphasis added). And because the nature of the

26a
certification authority should not fluctuate depending
on who is granted the certificate, the mere fact that
Airbus certifies its own aircraft has no bearing on
whether it “act[s] under” the FAA.
In short, a true self-certification regime (as with the
taxpayer attesting to his income) involves an affirmation that the regulated party completed his duty;
an ODA Holder’s “certification” conveys the agency’s
formal approval to the aircraft.
2
The majority’s flawed understanding of the ODA
Program blinds it to the differences between this case
and Watson. There, the defendant—Philip Morris—
argued that the FTC had “delegated authority” to test
cigarettes for tar and nicotine, and that it “‘act[ed]
under’ officers of the FTC” when it conducted such
testing. Watson, 551 U.S. at 154, 127 S.Ct. 2301 (emphasis removed). But the Supreme Court “found no
evidence of any delegation of legal authority from the
FTC to the industry association”—the “fatal flaw” in
Philip Morris’s argument. Id. at 156, 127 S.Ct. 2301
(emphasis added). Accordingly, the Court found no
reason to treat “the FTC/Philip Morris relationship as
distinct from the usual regulator/regulated relationship.” Id. at 157, 127 S.Ct. 2301.
Eager to fit this case into Watson’s mold, the
majority casts Airbus as a regulated party complying
(or self-certifying compliance) with FAA rules and
regulations. See Maj. Op. at 988–90. But as shown,
Congress and the FAA said that the FAA delegates
“legal authority” to act “on the Government agency’s
behalf.” Watson, 551 U.S. at 156, 127 S.Ct. 2301. That
delegation goes well beyond the “usual regulator/
regulated relationship,” id. at 157, 127 S.Ct. 2301, and

27a
as a delegee Airbus “assist[s]” and “help[s] carry out”
the duties and tasks of the FAA, id. at 152, 127 S.Ct.
2301 (emphasis removed). Under the correct reading
of Watson, such a scheme satisfies § 1442(a)(1)’s
“acting under” requirement. Id.3
III
The federal officer removal statute allows those who
labor on the federal government’s behalf, and are
therefore sued in state court, to have such case tried
in a federal forum. In this case, the FAA authorized
Airbus to issue certificates that the agency would
otherwise issue on its own, and such delegation
satisfies § 1442(a)(1)’s “acting under” requirement. Of
course, it might seem strange that a manufacturer’s
participation in this private-public partnership would
permit it to avoid state court; § 1442’s core purpose,
after all, is to give federal officials “a federal forum in
which to assert federal immunity defenses.” Watson,
551 U.S. at 150, 127 S.Ct. 2301 (emphasis added). But
the statute’s text is broader still, and our court has
discerned a “clear command from both Congress and
the Supreme Court that when federal officers and
their agents are seeking a federal forum, we are to
3

The Ninth Circuit cases that the majority cites do not support
its conclusion. See Maj. Op. at 985–88 (citing Goncalves v. Rady
Children’s Hosp. San Diego, 865 F.3d 1237 (9th Cir. 2017), and
Fidelitad, Inc. v. Insitu, Inc., 904 F.3d 1095 (9th Cir. 2018)). Both
cases apply Watson to statutory regimes quite different from the
FAA’s, and each decision’s fact-intensive analysis defies extraction of a simple rule that resolves this case. The majority’s broad
assertion that the court in Fidelitad was “confronted with the
identical issue” that we confront here is simply wrong, Maj. Op.
at 987–88; Fidelitad did not address a situation where an entity
had formally and explicitly been delegated authority to issue
certificates on behalf of a federal agency, let alone the specific
delegation that Airbus acts under here.

28a
interpret section 1442 broadly in favor of removal.”
Durham v. Lockheed Martin Corp., 445 F.3d 1247, 1252
(9th Cir. 2006) (emphasis added). The clear consequence of Congress’s handiwork is that FAA delegees
perform the agency’s tasks. Because Airbus is such a
delegee, § 1442(a)(1) entitles it to a federal forum.
I respectfully dissent.

29a
APPENDIX B
UNITED STATES DISTRICT COURT,
D. NEVADA
————
Case No. 2:18-CV-912 JCM (GWF)
————
MARY RIGGS, et al.,
v.

Plaintiff(s),

MATTHEW HECKER, et al.,
Defendant(s).
————
Signed 07/16/2018
————
ORDER
JAMES C. MAHAN, United States District Judge.
Presently before the court is plaintiff Mary Riggs
as personal representative of the estate of Jonathan
Neil Udall and Philip and Marlene Udall’s motion to
remand. (ECF No. 15). Specially-appearing defendant
Airbus Helicopters, Inc. (“AHI”) filed a response (ECF
No. 28), to which Riggs replied (ECF No. 37).
Also before the court is defendants Matthew Hecker,
Daniel Friedman, Brenda Halvorson, Geoffrey Edlund,
Elling Halvorson, John Becker, Elling Kent Halvorson,
Lon A. Halvorson, Papillon Airways, Inc., d/b/a Papillon
Grand Canyon Helicopters, Xebec LLC, and Scott Booth’s
(collectively, “the Papillon defendants”) motion to remand.
(ECF No. 19). AHI filed a response (ECF No. 28), to
which the Papillon defendants replied (ECF No. 38).

30a
I. Facts
The present action involves a dispute surrounding a
helicopter accident.
On March 2, 2018, Riggs commenced an action in
the Eighth Judicial District Court of Clark County,
Nevada, against several individual and entity defendants stemming from a February 10, 2018, helicopter
crash. (ECF No. 1, Ex. 2). In her claims against
AHI, Riggs alleges that the subject helicopter was
defectively designed in that the fuel system was not
crash-resistant. Id.
On May 18, 2018, AHI filed a petition for removal to
this court. Id. On June 8, 2018, Riggs filed a motion to
remand. (ECF No. 15). On June 15, 2018, the Papillon
defendants filed a motion to remand. (ECF No. 19). On
July 9, 2018, AHI filed a motion to dismiss Riggs’s
complaint for lack of personal jurisdiction.1 (ECF No.
36). Riggs subsequently filed a motion to defer briefing
on the motion to dismiss (ECF No. 39), and a motion
to shorten time (ECF No. 40).
1

AHI argues that the court should first consider its motion to
dismiss for lack of personal jurisdiction before addressing Riggs’s
motion to remand. See (ECF No. 36). AHI correctly states that
“the United States Supreme Court has held that a court can
resolve the issue of personal jurisdiction before addressing subject matter jurisdiction.” Id. at 3. In Ruhrgas v. Marathon Oil Co.,
526 U.S. 574, 587-88, 119 S.Ct. 1563, 143 L.Ed.2d 760 (1999), the
Court held that where “a district court has before it a straightforward personal jurisdiction issue presenting no complex
question of state law, and the alleged defect in subject matter
jurisdiction raises a difficult and novel question, the court does
not abuse its discretion by turning directly to personal jurisdiction.” Here, the subject matter jurisdiction inquiry does not involve
a complex question. Therefore, the court will address Riggs’s motion
to remand before considering AHI’s motion to dismiss. See id.

31a
II. Legal Standard
Federal courts are courts of limited jurisdiction.
Owen Equip. & Erection Co. v. Kroger, 437 U.S. 365,
374, 98 S.Ct. 2396, 57 L.Ed.2d 274 (1978). Pursuant to
28 U.S.C. § 1441(a), “any civil action brought in a State
court of which the district courts of the United States
have original jurisdiction, may be removed by the
defendant or the defendants, to the district court of the
United States for the district and division embracing
the place where such action is pending.” 28 U.S.C.
§ 1441(a).
Procedurally, a defendant has thirty (30) days upon
notice of removability to remove a case to federal court.
Durham v. Lockheed Martin Corp., 445 F.3d 1247,
1250 (9th Cir. 2006) (citing 28 U.S.C. § 1446(b)(2)).
Defendants are not charged with notice of removability “until they’ve received a paper that gives them
enough information to remove.” Id. at 1251.
Specifically, “the ‘thirty day time period [for
removal] . . . starts to run from defendant’s receipt of
the initial pleading only when that pleading affirmatively reveals on its face’ the facts necessary for federal
court jurisdiction.” Id. at 1250 (quoting Harris v.
Bankers Life & Casualty Co., 425 F.3d 689, 690-91 (9th
Cir. 2005) (alterations in original)). “Otherwise, the
thirty-day clock doesn’t begin ticking until a defendant
receives ‘a copy of an amended pleading, motion, order
or other paper’ from which it can determine that the
case is removable.” Id. (quoting 28 U.S.C. § 1446(b)(3)).
A plaintiff may challenge removal by timely filing a
motion to remand. 28 U.S.C. § 1447(c). Remand to
state court is proper if the district court lacks jurisdiction. Id. “A federal court is presumed to lack jurisdiction
in a particular case unless the contrary affirmatively

32a
appears.” Stock West, Inc. v. Confederated Tribes of
Colville Reservation, 873 F.2d 1221, 1225 (9th Cir.
1989). Thus, federal subject matter jurisdiction must
exist at the time an action is commenced. Mallard
Auto. Grp., Ltd. v. United States, 343 F.Supp.2d 949,
952 (D. Nev. 2004) (citing Morongo Band of Mission
Indians v. Cal. State Bd. of Equalization, 858 F.2d
1376, 1380 (9th Cir.1988)).
On a motion to remand, the removing defendant
faces a strong presumption against removal, and bears
the burden of establishing that removal is proper.
Sanchez v. Monumental Life Ins. Co., 102 F.3d 398,
403-04 (9th Cir. 1996); Gaus v. Miles, Inc., 980 F.2d
564, 566-67 (9th Cir. 1992).
III. Discussion
a. Federal officer removal statute
In the notice of removal, AHI argues that this action
is removable because this court has subject matter
jurisdiction pursuant to 28 U.S.C. § 1442. See (ECF
No. 1). AHI contends that this action is removable
“because the action involves a person that acted under
the authority of an officer or agency of the United
States.” Id. at 3.
28 U.S.C. § 1442(a)(1), known as the federal officer
removal statute, offers a federal forum to “[t]he United
States or any agency thereof or any officer (or any
person acting under that officer) of the United States
or of any agency thereof, in an official or individual
capacity, for or relating to any act under color of such
office.”
A party seeking removal under § 1442(a)(1) must
demonstrate that “(a) it is a person within the meaning of the statute; (b) there is a causal nexus between

33a
its actions, taken pursuant to a federal officer’s direction, and plaintiff’s claims; and (c) it can assert a
colorable federal defense.” Durham v. Lockheed Martin
Corp., 445 F.3d 1247, 1251 (9th Cir. 2006). Here, the
parties dispute whether AHI satisfies § 1442(a)(1)’s
“acting under” requirement.2
i. Whether AHI satisfies § 1442(a)(1)’s “acting
under” requirement
The federal officer removal statute extends removal
authority only to persons acting under an officer of the
United States. See 28 U.S.C. § 1442(a)(1). A private
person must assist or help carry out the duties or tasks
of a federal supervisor in order to qualify as a person
“acting under” a federal officer. See Watson v. Philip
Morris Cos., 551 U.S. 142, 152, 127 S.Ct. 2301, 168
L.Ed.2d 42 (2007).
In Watson, the Supreme Court clarified the scope of
§ 1442(a)(1) as applied to private actors in highly
regulated industries. Watson, 551 U.S. at 145, 127
S.Ct. 2301. Plaintiff Lisa Watson filed a class action
lawsuit against defendant Philip Morris, claiming that
the company violated Arkansas law by misrepresenting the amount of tar and nicotine in cigarettes
branded as “light.” Id. at 146, 127 S.Ct. 2301. The
defendant removed the case to federal court, contending that it was “acting under” the direct control
of regulations promulgated by the Federal Trade
Commission, thereby triggering the application of
§ 1442(a)(1). Id. The district court denied plaintiff’s
2

The parties do not dispute that AHI is a person under the
statute. See 1 U.S.C. § 1 (“in determining the meaning of an Act
of Congress, unless the context indicates otherwise . . . the words
‘person’ and ‘whoever’ include corporations, companies, and associations.”).

34a
motion to remand and the Eighth Circuit affirmed. Id.
at 147, 127 S.Ct. 2301.
In reversing the Eighth Circuit, the Court acknowledged the statutory requirement to broadly construe
§ 1442(a)(1), but stated that such construction is not
without boundaries. Id. “Broad language is not limitless. And a liberal construction nonetheless can find
limits in a text’s language, context, history, and
purposes.” Id. In limiting the scope of § 1442(a)(1), the
Court warned against granting manufacturers access
to federal courts merely because of their participation
in highly regulated industries:
In our view the help of assistance necessary to
bring a private person within the scope of the
statute does not include simply complying with
the law. The upshot is that a highly regulated firm
cannot find a statutory basis for removal in the
fact of federal regulation alone. A private firm’s
compliance (or noncompliance) with federal laws,
rules, and regulations does not by itself fall within
the scope of the statutory phrase “acting under” a
federal “official.”
Id. at 152-53. The Court held that a company does not
act under a federal officer merely by complying with
federal law and regulations in a heavily regulated
industry. See id. at 153, 157, 127 S.Ct. 2301.
The Ninth Circuit has not directly addressed
§ 1442(a)(1) removal based on an FAA designation.
However, the Seventh Circuit recently applied Watson
to a § 1442(a)(1) removal claim by an aircraft manufacturer in Lu Junhong v. Boeing Co, 792 F.3d 805, 806
(7th. Cir. 2015). In Lu Junhong, Boeing argued that it
was acting under the FAA because: “(1) the FAA has
granted Boeing authority to use FAA-approved proce-

35a
dures to conduct analysis and testing for the issuance
of type, production, and airworthiness certifications
for aircraft under Federal Aviation Regulations; and
(2) FAA Order 8100.9A authorizes and requires it
to analyze the adequacy of its autopilot and autothrottle
systems and certify that they meet the regulatory
requirements of 14 C.F.R. § 25.1309.” Id.
The Seventh Circuit rejected Boeing’s argument
that it was entitled to removal under § 1442(a)(1).
Id. at 808. The court held that “certifications just
demonstrate a person’s awareness of the governing
requirements and evince a belief in compliance.” Id.
Moreover, a “figure of speech [referring to certifications] does not make someone a federal officer or
person ‘acting under’ one.” Id. at 808-09. Instead, the
Seventh Circuit held that “we know from Watson v.
Phillip Morris Cos., 551 U.S. 142, 127 S.Ct. 2301, 168
L.Ed.2d 42 (2007), that being regulated, even when a
federal agency ‘directs, supervises and monitors a
company’s activities in considerable detail,’ is not
enough to make a private firm a person ‘acting under’
a federal agency.” Id. at 809 (internal citation omitted).
Moreover, several districts courts have confronted
similar arguments for removal in the aviation context.
The majority of those courts has remanded the cases
to state court. See, e.g., Dietz v. Avco Corp., 168
F.Supp.3d 747, 755 (E.D. Pa. 2016) (holding that the
defendants did not act under a federal officer when
manufacturing and designing engine components pursuant to FAA authorization under 49 U.S.C. § 44702(d));
Swanstrom v. Teledyne Cont’l Motors, Inc., 531
F.Supp.2d 1325, 1333 (S.D. Ala. 2008) (holding that a
defendant cannot claim removal under § 1442(a)(1)
simply because it has employees who are designated
FAA authorized agents); Vandeventer v. Guimond, 494

36a
F.Supp.2d 1255, 1267 (D. Kan. 2007) (holding that a
defendant did not stand in the shoes of the FAA, or act
under a federal officer or agency, when he conducted
airworthiness inspection and certification).
Conversely, several district courts have recognized
the government contractor defense in denying motions
to remand.3 See, e.g., Beckwith v. Gen. Elec. Co., No.
09-cv-0216, 2010 U.S. Dist. LEXIS 30360, 2010 WL
1287095 (D. Conn. Mar. 30, 2010) (denying motion to
remand as defendant properly alleged government
contractor defense); Boyd v. Boeing Co., No. 15-cv0025, 2015 WL 4371928, 2015 U.S. Dist. LEXIS 91226
(E.D. La. July 14, 2015) (same). However, the Court in
Watson distinguished the government contractor defense
from compliance by holding that “the assistance that
private contractors provide federal officers goes beyond
simple compliance with the law and helps officers
fulfill other basic governmental tasks.” 551 U.S. at
153, 127 S.Ct. 2301.
Here, AHI argues that, as a holder of a Federal
Aviation Administration (“FAA”) Organization Designation Authorization (“ODA”), it “acted under” the
authority of the FAA with respect to the claims Riggs
asserts against it. (ECF No. 1 at 3). This authorization
from the FAA to AHI is governed by 49 U.S.C.
§ 44702(d), which provides that the FAA “may
delegate to a qualified person or to an employee under
the supervision of that person, a matter related to: (A)
the examination, testing, and inspection necessary to
3

In Durham, the Ninth Circuit dealt with federal contractor
immunity. Durham v. Lockheed Martin Corp., 445 F.3d 1247,
1251 (9th Cir. 2006) (“Lockheed, like other federal military
contractors, performs some activities on military bases that are
protected by federal contractor immunity, and others that are
not.”).

37a
issue a certificate under this chapter [49 U.S.C.
§§ 44710, et seq.]; and (B) issuing the certificate.” 49
U.S.C. § 44702(d).
AHI contends that the FAA delegation satisfies the
“acting under” requirement because AHI “acts on
behalf of and assists the FAA in the performance of the
agency’s federal mandate.” (ECF No. 19 at 9). As an
FAA designee, AHI “conducts the examination, testing,
and inspection necessary to issue STCs, subject to the
FAA’s comprehensive and regular oversight.”4 Id. In
light of these responsibilities, AHI argues that it “does
more than just comply with the comprehensive and
pervasive FAA regulatory scheme – it assists the FAA
and helps carry out the FAA’s functions – and this
removal is based on much more than mere compliance
with the regulatory regime.” Id. at 9-10.
AHI extensively cites Watson in its response and
argues that removal in this case is consistent with the
Court’s interpretation of § 1442(a)(1)’s scope. See id.
AHI correctly notes that “the U.S. Supreme Court in
Watson held that compliance with regulations alone is
insufficient for removal under § 1442(a)(1).” Id. at 10.
Moreover, AHI referenced a distinction drawn by the
Court, stating that “the Watson Court held that the
‘fatal flaw’ in Phillip Morris’s assertion of delegated
authority was one of ‘omission’: there was ‘no evidence
of any delegation of legal authority from the FTC to
the industry association to undertake testing on the

4

An STC is a supplemental type certificate. (ECF No. 1). STCs
are required by the FAA in order for someone other than the type
certificate holder to make major design changes to any typecertified aircraft. Id. AHI held an STC for the helicopter at issue
in the present dispute. Id.

38a
Government agency’s behalf.’” Id. at 11. (citation
omitted).
AHI argues that the “fundamental distinction between
the FAA scheme here – where AHI was formally
delegated authority by the FAA, and the tobacco
industry regime in Watson – where no such delegation
occurred – is the reason why removal here is
appropriate.” Id. AHI notes that “both in its amicus
brief and at oral argument [in Watson], the U.S.
solicitor general offered the FAA’s delegation scheme
as the ‘proper’ application of the federal officer
removal statute.” Id.
The Seventh Circuit, in Lu Junhong, addressed a
similar argument. 792 F.3d at 810. “Boeing points to
49 U.S.C. § 44702(d)(1), which permits the FAA to
conserve its resources by transferring some checking
and certification functions to manufactures, and the
FAA used that power in Order 8100.9A.” Id. In
rejecting Boeing’s contention, the Seventh Circuit held
that “this is still a power to certify compliance, not a
power to design the rules for airworthiness. The FAA
permits Boeing to make changes to its gear after
finding that the equipment meets the FAA’s standards; it does not permit Boeing to use gear that meets
Boeing’s self-adopted criteria.” Id. Further, the court
held that “when discussing the possibility that delegation might create ‘acting under’ status, the Court
mentioned rule making rather than rule compliance as
the key ingredient, and the FAA’s order does not allow
Boeing to change substantive rules.” Id. (internal
citation omitted).
Here, the FAA delegation under 49 U.S.C. § 44702(d)(1)
does not allow AHI to create or change substantive
rules. See 49 U.S.C. § 44702(d)(1). Moreover, the
delegation does not allow AHI to manufacture gear

39a
that meets its own self-adopted criteria. See id.; see
also Lu Junhong, 792 F.3d at 810. Rather, the relevant
regulation provides that “each applicant must make
all inspections and tests necessary to determine (1)
compliance with the applicable airworthiness, aircraft
noise, fuel venting, and exhaust emission requirements.” 14 C.F.R. § 21.33. Therefore, AHI’s activities
pursuant to its FAA delegation are rule compliance
rather than rule making. See Lu Junhong, 792 F.3d at
810.
AHI additionally argues that “[district] courts within
the Ninth Circuit that have considered an FAA organizational designee’s status have held that such entities
act under the FAA for the purposes of § 1442(a)(1).”
(ECF No. 28 at 13). AHI correctly notes that several
district courts have held that § 1442(a)(1) removal is
proper for a party acting pursuant to an FAA delegation under 49 U.S.C. § 44702(d). See, e.g., Hecker v.
Robinson Helicopter Co., No. 13-cv-03006, 2013 WL
5674982, at *2, 2013 U.S. Dist. LEXIS 149788, at *2
(E.D. Wash. Oct. 17, 2013) (holding that a defendant’s
ODA issued under § 44702(d) confers federal status as
to any acts undertaken pursuant to that authority);
AIG Europe (UK) Ltd. v. McDonnell Douglas Corp.,
2003 WL 257702, at *3, 2003 U.S. Dist. LEXIS 1770,
at *2 (C.D. Cal. Jan. 28, 2003) (same).
Notably, AHI cites cases that relied on Magnin v.
Teledyn Cont’l Motors, 91 F.3d 1424 (11th Cir. 1996),
which predated Watson. The Seventh Circuit, in
Lu Junhong, held that “we think that Magnin is
inconsistent with Watson and cannot be considered
authoritative.” 792 F.3d at 810. The court agrees.
Further, the cases cited by AHI do not reference
Watson. See Hecker, 2013 WL 5674982, at *2, 2013
U.S. Dist. LEXIS 149888, at *2; see also AIG Europe

40a
(UK) Ltd., 2003 WL 257702, at *3, 2003 U.S. Dist.
LEXIS 1770, at *2. Therefore, the cases cited by AHI
are unpersuasive.
The court holds that AHI does not satisfy § 1442(a)(1)’s
“acting under” requirement. See Lu Junhong, 792 F.3d
at 810. Therefore, removal is improper in this case. See
Durham, 445 F.3d at 1251.
IV. Conclusion
The court will grant the pending motions to remand.
The remaining outstanding motions are therefore
moot.
Accordingly,
IT IS HEREBY ORDERED, ADJUDGED, and
DECREED that Riggs’s motion to remand (ECF No.
15) be, and the same hereby is, GRANTED.
IT IS FURTHER ORDERED that the Papillon
defendants’ motion to remand (ECF No. 19) be, and
the same hereby is, GRANTED.
IT IS FURTHER ORDERED that this case be, and
the same hereby is, REMANDED to the Eighth
Judicial District Court of Clark County, Nevada.

41a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed November 21, 2019]
————
No. 18-16396
D.C. No. 2:18-cv-00912-JCM-GWF
District of Nevada, Las Vegas
————
MARY RIGGS, as Personal Representative of the
ESTATE OF JONATHAN NEIL UDALL, for the benefit of
the ESTATE OF JONATHAN NEIL UDALL, and
PHILIP AND MARLENE UDALL as Next of Kin and
Natural Parents of JONATHAN NEIL UDALL, deceased,
Plaintiff-Appellee,
v.
AIRBUS HELICOPTERS, INC.,
Defendant-Appellant,
v.
MATTHEW HECKER; DANIEL FRIEDMAN;
BRENDA HALVORSON; GEOFFREY EDLUND;
ELLING B. HALVORSON; JOHN BECKER; ELLING KENT
HALVORSON; LON A. HALVORSON; SCOTT BOOTH;
PAPILLON AIRWAYS, INC., DBA Papillon Grand
Canyon Helicopters; XEBEC LLC,
Defendants-Appellees.
————
ORDER
————

42a
Before:
SCHROEDER,
O’SCANNLAIN,
RAWLINSON, Circuit Judges.

and

Judge Rawlinson voted to deny the Petition for
Rehearing or Rehearing En Banc.
Judge Schroeder voted to deny the Petition for
Rehearing and recommended denying the Petition for
Rehearing En Banc.
Judge O’Scannlain voted to grant the Petition for
Rehearing and recommended granting the Petition for
Rehearing En Banc.
The full court has been advised of the Petition for
Rehearing En Banc, and no judge of the court has
requested a vote.
The Petition for Rehearing or Rehearing En Banc,
filed October 25, 2019, is DENIED.

43a
APPENDIX D
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
————
28 U.S.C. § 1442. Federal officers or agencies
sued or prosecuted
(a) A civil action or criminal prosecution that is
commenced in a State court and that is against or
directed to any of the following may be removed by
them to the district court of the United States for the
district and division embracing the place wherein it is
pending:
(1) The United States or any agency thereof or any
officer (or any person acting under that officer) of the
United States or of any agency thereof, in an official
or individual capacity, for or relating to any act
under color of such office or on account of any right,
title or authority claimed under any Act of Congress
for the apprehension or punishment of criminals or
the collection of the revenue.
(2) A property holder whose title is derived from any
such officer, where such action or prosecution affects
the validity of any law of the United States.
(3) Any officer of the courts of the United States, for
or relating to any act under color of office or in the
performance of his duties;
(4) Any officer of either House of Congress, for or
relating to any act in the discharge of his official duty
under an order of such House.
(b) A personal action commenced in any State court
by an alien against any citizen of a State who is, or at
the time the alleged action accrued was, a civil officer

44a
of the United States and is a nonresident of such State,
wherein jurisdiction is obtained by the State court by
personal service of process, may be removed by the
defendant to the district court of the United States for
the district and division in which the defendant was
served with process.
(c) Solely for purposes of determining the propriety of
removal under subsection (a), a law enforcement
officer, who is the defendant in a criminal prosecution,
shall be deemed to have been acting under the color of
his office if the officer—
(1) protected an individual in the presence of the
officer from a crime of violence;
(2) provided immediate assistance to an individual
who suffered, or who was threatened with, bodily
harm; or
(3) prevented the escape of any individual who the
officer reasonably believed to have committed, or
was about to commit, in the presence of the officer, a
crime of violence that resulted in, or was likely to
result in, death or serious bodily injury.
(d) In this section, the following definitions apply:
(1) The terms “civil action” and “criminal prosecution” include any proceeding (whether or not ancillary to another proceeding) to the extent that in such
proceeding a judicial order, including a subpoena
for testimony or documents, is sought or issued. If
removal is sought for a proceeding described in the
previous sentence, and there is no other basis for
removal, only that proceeding may be removed to the
district court.
(2) The term “crime of violence” has the meaning
given that term in section 16 of title 18.

45a
(3) The term “law enforcement officer” means any
employee described in subparagraph (A), (B), or (C)
of section 8401(17) of title 5 and any special agent in
the Diplomatic Security Service of the Department
of State.
(4) The term “serious bodily injury” has the
meaning given that term in section 1365 of title 18.
(5) The term “State” includes the District of
Columbia, United States territories and insular
possessions, and Indian country (as defined in
section 1151 of title 18).
(6) The term “State court” includes the Superior
Court of the District of Columbia, a court of a United
States territory or insular possession, and a tribal
court.
49 U.S.C. § 44701. General requirements
(a) Promoting safety.—The Administrator of the
Federal Aviation Administration shall promote safe
flight of civil aircraft in air commerce by prescribing—
(1) minimum standards required in the interest of
safety for appliances and for the design, material,
construction, quality of work, and performance of
aircraft, aircraft engines, and propellers;
(2) regulations and minimum standards in the
interest of safety for—
(A) inspecting, servicing, and overhauling aircraft, aircraft engines, propellers, and appliances;
(B) equipment and facilities for, and the timing
and manner of, the inspecting, servicing, and
overhauling; and

46a
(C) a qualified private person, instead of an
officer or employee of the Administration, to
examine and report on the inspecting, servicing,
and overhauling;
(3) regulations required in the interest of safety for
the reserve supply of aircraft, aircraft engines, propellers, appliances, and aircraft fuel and oil, including the reserve supply of fuel and oil carried in
flight;
(4) regulations in the interest of safety for the maximum hours or periods of service of airmen and other
employees of air carriers; and
(5) regulations and minimum standards for other
practices, methods, and procedure the Administrator finds necessary for safety in air commerce and
national security.
(b) Prescribing minimum safety standards.—The
Administrator may prescribe minimum safety standards for—
(1) an air carrier to whom a certificate is issued
under section 44705 of this title; and
(2) operating an airport serving any passenger
operation of air carrier aircraft designed for at least
31 passenger seats.
(c) Reducing and eliminating accidents.—The Administrator shall carry out this chapter in a way that best
tends to reduce or eliminate the possibility or recurrence of accidents in air transportation. However, the
Administrator is not required to give preference either
to air transportation or to other air commerce in carrying out this chapter.

47a
(d) Considerations and classification of regulations
and standards.—When prescribing a regulation or
standard under subsection (a) or (b) of this section
or any of sections 44702-44716 of this title, the
Administrator shall—
(1) consider—
(A) the duty of an air carrier to provide service
with the highest possible degree of safety in the
public interest; and
(B) differences between air transportation and
other air commerce; and
(2) classify a regulation or standard appropriate to
the differences between air transportation and other
air commerce.
(e) Bilateral exchanges of safety oversight responsibilities.—
(1) In general.—Notwithstanding the provisions of
this chapter, the Administrator, pursuant to Article
83 bis of the Convention on International Civil Aviation and by a bilateral agreement with the aeronautical authorities of another country, may exchange
with that country all or part of their respective
functions and duties with respect to registered aircraft under the following articles of the Convention:
Article 12 (Rules of the Air); Article 31 (Certificates
of Airworthiness); or Article 32a (Licenses of Personnel).
(2) Relinquishment and acceptance of responsibility.—The Administrator relinquishes responsibility
with respect to the functions and duties transferred
by the Administrator as specified in the bilateral
agreement, under the Articles listed in paragraph
(1) for United States-registered aircraft described in

48a
paragraph (4)(A) transferred abroad and accepts
responsibility with respect to the functions and
duties under those Articles for aircraft registered
abroad and described in paragraph (4)(B) that are
transferred to the United States.
(3) Conditions.—The Administrator may predicate,
in the agreement, the transfer of functions and
duties under this subsection on any conditions the
Administrator deems necessary and prudent, except
that the Administrator may not transfer responsibilities for United States registered aircraft described in paragraph (4)(A) to a country that the
Administrator determines is not in compliance with
its obligations under international law for the safety
oversight of civil aviation.
(4) Registered aircraft defined.—In this subsection,
the term “registered aircraft” means—
(A) aircraft registered in the United States and
operated pursuant to an agreement for the lease,
charter, or interchange of the aircraft or any similar arrangement by an operator that has its
principal place of business or, if it has no such
place of business, its permanent residence in
another country; and
(B) aircraft registered in a foreign country and
operated under an agreement for the lease, charter, or interchange of the aircraft or any similar
arrangement by an operator that has its principal
place of business or, if it has no such place of
business, its permanent residence in the United
States.

49a
(5) Foreign airworthiness directives.—
(A) Acceptance.—Subject to subparagraph (D),
the Administrator may accept an airworthiness
directive, as defined in section 39.3 of title 14,
Code of Federal Regulations, issued by an aeronautical safety authority of a foreign country, and
leverage that authority’s regulatory process, if—
(i) the country is the state of design for the
product that is the subject of the airworthiness
directive;
(ii) the United States has a bilateral safety
agreement relating to aircraft certification with
the country;
(iii) as part of the bilateral safety agreement
with the country, the Administrator has determined that such aeronautical safety authority
has an aircraft certification system relating to
safety that produces a level of safety equivalent
to the level produced by the system of the
Federal Aviation Administration;
(iv) the aeronautical safety authority of the
country utilizes an open and transparent notice
and comment process in the issuance of airworthiness directives; and
(v) the airworthiness directive is necessary to
provide for the safe operation of the aircraft
subject to the directive.
(B) Alternative approval process.—Notwithstanding subparagraph (A), the Administrator
may issue a Federal Aviation Administration
airworthiness directive instead of accepting an
airworthiness directive otherwise eligible for
acceptance under such subparagraph, if the

50a
Administrator determines that such issuance is
necessary for safety or operational reasons due to
the complexity or unique features of the Federal
Aviation Administration airworthiness directive
or the United States aviation system.
(C) Alternative means
Administrator may—

of

compliance.—The

(i) accept an alternative means of compliance,
with respect to an airworthiness directive
accepted under subparagraph (A), that was
approved by the aeronautical safety authority of
the foreign country that issued the airworthiness directive; or
(ii) notwithstanding subparagraph (A), and at
the request of any person affected by an airworthiness directive accepted under such subparagraph, approve an alternative means of
compliance with respect to the airworthiness
directive.
(D) Limitation.—The Administrator may not
accept an airworthiness directive issued by an
aeronautical safety authority of a foreign country
if the airworthiness directive addresses matters
other than those involving the safe operation of an
aircraft.
(f) Exemptions.—The Administrator may grant an
exemption from a requirement of a regulation prescribed under subsection (a) or (b) of this section or any
of sections 44702-44716 of this title if the Administrator finds the exemption is in the public interest.

51a
49 U.S.C. § 44702. Issuance of certificates
(a) General authority and applications.—The Administrator of the Federal Aviation Administration may
issue airman certificates, design organization certificates, type certificates, production certificates, airworthiness certificates, air carrier operating certificates, airport operating certificates, air agency certificates, and air navigation facility certificates under this
chapter. An application for a certificate must—
(1) be under oath when the Administrator requires;
and
(2) be in the form, contain information, and be filed
and served in the way the Administrator prescribes.
(b) Considerations.—When issuing a certificate under
this chapter, the Administrator shall—
(1) consider—
(A) the duty of an air carrier to provide service
with the highest possible degree of safety in the
public interest; and
(B) differences between air transportation and
other air commerce; and
(2) classify a certificate according to the differences
between air transportation and other air commerce.
(c) Prior certification.—The Administrator may
authorize an aircraft, aircraft engine, propeller, or
appliance for which a certificate has been issued
authorizing the use of the aircraft, aircraft engine,
propeller, or appliance in air transportation to be used
in air commerce without another certificate being
issued.

52a
(d) Delegation.—
(1) Subject to regulations, supervision, and review
the Administrator may prescribe, the Administrator
may delegate to a qualified private person, or to an
employee under the supervision of that person, a
matter related to—
(A) the examination, testing, and inspection
necessary to issue a certificate under this chapter;
and
(B) issuing the certificate.
(2) The Administrator may rescind a delegation
under this subsection at any time for any reason the
Administrator considers appropriate.
(3) A person affected by an action of a private
person under this subsection may apply for
reconsideration of the action by the Administrator.
On the Administrator’s own initiative, the Administrator may reconsider the action of a private
person at any time. If the Administrator decides on
reconsideration that the action is unreasonable or
unwarranted, the Administrator shall change,
modify, or reverse the action. If the Administrator
decides the action is warranted, the Administrator
shall affirm the action.
49 U.S.C. § 44704. Type certificates, production
certificates, airworthiness certificates, and
design and production organization certificates
(a) Type certificates.—
(1) Issuance, investigations, and tests.—The
Administrator of the Federal Aviation Administration shall issue a type certificate for an aircraft,
aircraft engine, or propeller, or for an appliance

53a
specified under paragraph (2)(A) of this subsection
when the Administrator finds that the aircraft,
aircraft engine, propeller, or appliance is properly
designed and manufactured, performs properly, and
meets the regulations and minimum standards prescribed under section 44701(a) of this title. On
receiving an application for a type certificate, the
Administrator shall investigate the application and
may conduct a hearing. The Administrator shall
make, or require the applicant to make, tests the
Administrator considers necessary in the interest of
safety.
(2) Specifications.—The Administrator may—
(A) specify in regulations those appliances that
reasonably require a type certificate in the
interest of safety;
(B) include in a type certificate terms required in
the interest of safety; and
(C) record on the certificate a numerical specification of the essential factors related to the performance of the aircraft, aircraft engine, or propeller
for which the certificate is issued.
(3) Special rules for new aircraft and appliances.—
Except as provided in paragraph (4), if the holder of
a type certificate agrees to permit another person to
use the certificate to manufacture a new aircraft,
aircraft engine, propeller, or appliance, the holder
shall provide the other person with written evidence, in a form acceptable to the Administrator, of
that agreement. Such other person may manufacture a new aircraft, aircraft engine, propeller, or
appliance based on a type certificate only if such
other person is the holder of the type certificate or
has permission from the holder.

54a
(4) Limitation for aircraft manufactured before
August 5, 2004.—Paragraph (3) shall not apply to a
person who began the manufacture of an aircraft
before August 5, 2004, and who demonstrates to the
satisfaction of the Administrator that such
manufacture began before August 5, 2004, if the
name of the holder of the type certificate for the
aircraft does not appear on the airworthiness
certificate or identification plate of the aircraft. The
holder of the type certificate for the aircraft shall not
be responsible for the continued airworthiness of the
aircraft. A person may invoke the exception
provided by this paragraph with regard to the
manufacture of only one aircraft.
(5) Release of data.—
(A) In general.—Notwithstanding any other
provision of law, the Administrator may make
available upon request, to a person seeking to
maintain the airworthiness or develop product
improvements of an aircraft, engine, propeller, or
appliance, engineering data in the possession of
the Administration relating to a type certificate or
a supplemental type certificate for such aircraft,
engine, propeller, or appliance, without the consent of the owner of record, if the Administrator
determines that—
(i) the certificate containing the requested data
has been inactive for 3 or more years, except
that the Administrator may reduce this time if
required to address an unsafe condition associated with the product;
(ii) after using due diligence, the Administrator
is unable to find the owner of record, or the

55a
owner of record’s heir, of the type certificate or
supplemental type certificate; and
(iii) making such data available will enhance
aviation safety.
(B) Engineering data defined.—In this section,
the term “engineering data” as used with respect
to an aircraft, engine, propeller, or appliance
means type design drawing and specifications for
the entire aircraft, engine, propeller, or appliance
or change to the aircraft, engine, propeller, or
appliance, including the original design data, and
any associated supplier data for individual parts
or components approved as part of the particular
certificate for the aircraft, engine, propeller, or
appliance.
(C) Requirement to maintain data.—The Administrator shall maintain engineering data in the
possession of the Administration relating to a type
certificate or a supplemental type certificate that
has been inactive for 3 or more years.
(6) Type certification resolution process.—
(A) In general.—Not later than 15 months after
the date of enactment of the FAA Reauthorization
Act of 2018, the Administrator shall establish an
effective, timely, and milestone-based issue resolution process for type certification activities
under this subsection.
(B) Process requirements.—The resolution process shall provide for—
(i) resolution of technical issues at preestablished stages of the certification process,
as agreed to by the Administrator and the type
certificate applicant;

56a
(ii) automatic elevation to appropriate management personnel of the Federal Aviation Administration and the type certificate applicant of
any major certification process milestone that is
not completed or resolved within a specific
period of time agreed to by the Administrator
and the type certificate applicant; and
(iii) resolution of a major certification process
milestone elevated pursuant to clause (ii)
within a specific period of time agreed to by the
Administrator and the type certificate applicant.
(C) Major certification process milestone defined.—
In this paragraph, the term “major certification
process milestone” means a milestone related to a
type certification basis, type certification plan,
type inspection authorization, issue paper, or
other major type certification activity agreed to by
the Administrator and the type certificate
applicant.
(b) Supplemental type certificates.—
(1) Issuance.—The Administrator may issue a type
certificate designated as a supplemental type certificate for a change to an aircraft, aircraft engine,
propeller, or appliance.
(2) Contents.—A supplemental type certificate
issued under paragraph (1) shall consist of the
change to the aircraft, aircraft engine, propeller, or
appliance with respect to the previously issued type
certificate for the aircraft, aircraft engine, propeller,
or appliance.
(3) Requirement.—If the holder of a supplemental
type certificate agrees to permit another person to

57a
use the certificate to modify an aircraft, aircraft
engine, propeller, or appliance, the holder shall
provide the other person with written evidence, in a
form acceptable to the Administrator, of that agreement. A person may change an aircraft, aircraft
engine, propeller, or appliance based on a supplemental type certificate only if the person requesting
the change is the holder of the supplemental type
certificate or has permission from the holder to
make the change.
(c) Production certificates.—The Administrator shall
issue a production certificate authorizing the production of a duplicate of an aircraft, aircraft engine,
propeller, or appliance for which a type certificate has
been issued when the Administrator finds the duplicate will conform to the certificate. On receiving an
application, the Administrator shall inspect, and may
require testing of, a duplicate to ensure that it
conforms to the requirements of the certificate. The
Administrator may include in a production certificate
terms required in the interest of safety.
(d) Airworthiness certificates.—
(1) The registered owner of an aircraft may apply to
the Administrator for an airworthiness certificate
for the aircraft. The Administrator shall issue an
airworthiness certificate when the Administrator
finds that the aircraft conforms to its type certificate
and, after inspection, is in condition for safe operation. The Administrator shall register each airworthiness certificate and may include appropriate
information in the certificate. The certificate number or other individual designation the Administrator requires shall be displayed on the aircraft. The
Administrator may include in an airworthiness
certificate terms required in the interest of safety.

58a
(2) A person applying for the issuance or renewal of
an airworthiness certificate for an aircraft for which
ownership has not been recorded under section
44107 or 44110 of this title must submit with the
application information related to the ownership of
the aircraft the Administrator decides is necessary
to identify each person having a property interest in
the aircraft and the kind and extent of the interest.
(e) Design and production organization certificates.—
(1) Issuance.—Beginning January 1, 2013, the
Administrator may issue a certificate to a design
organization, production organization, or design and
production organization to authorize the organization to certify compliance of aircraft, aircraft
engines, propellers, and appliances with the
requirements and minimum standards prescribed
under section 44701(a). An organization holding a
certificate issued under this subsection shall be
known as a certified design and production
organization (in this subsection referred to as a
“CDPO”).
(2) Applications.—On receiving an application for a
CDPO certificate, the Administrator shall examine
and rate the organization submitting the application, in accordance with regulations to be prescribed
by the Administrator, to determine whether the
organization has adequate engineering, design, and
production capabilities, standards, and safeguards
to make certifications of compliance as described in
paragraph (1).
(3) Issuance of certificates based on CDPO
findings.—The Administrator may rely on certifications of compliance by a CDPO when making
determinations under this section.

59a
(4) Public safety.—The Administrator shall include
in a CDPO certificate terms required in the interest
of safety.
(5) No effect on power of revocation.—Nothing in
this subsection affects the authority of the Secretary
of Transportation to revoke a certificate.
14 C.F.R. § 21.21. Issue of type certificate:
normal, utility, acrobatic, commuter, and transport category aircraft; manned free balloons;
special classes of aircraft; aircraft engines;
propellers.
An applicant is entitled to a type certificate for an
aircraft in the normal, utility, acrobatic, commuter, or
transport category, or for a manned free balloon,
special class of aircraft, or an aircraft engine or
propeller, if—
(a) The product qualifies under § 21.27; or
(b) The applicant submits the type design, test
reports, and computations necessary to show that the
product to be certificated meets the applicable airworthiness, aircraft noise, fuel venting, and exhaust
emission requirements of this subchapter and any
special conditions prescribed by the FAA, and the FAA
finds—
(1) Upon examination of the type design, and after
completing all tests and inspections, that the type
design and the product meet the applicable noise,
fuel venting, and emissions requirements of this
subchapter, and further finds that they meet the
applicable airworthiness requirements of this subchapter or that any airworthiness provisions not
complied with are compensated for by factors that
provide an equivalent level of safety; and

60a
(2) For an aircraft, that no feature or characteristic
makes it unsafe for the category in which certification is requested.
14 C.F.R. § 21.33. Inspection and tests.
(a) Each applicant must allow the FAA to make any
inspection and any flight and ground test necessary to
determine compliance with the applicable requirements of this subchapter. However, unless otherwise
authorized by the FAA—
(1) No aircraft, aircraft engine, propeller, or part
thereof may be presented to the FAA for test unless
compliance with paragraphs (b)(2) through (b)(4) of
this section has been shown for that aircraft, aircraft
engine, propeller, or part thereof; and
(2) No change may be made to an aircraft, aircraft
engine, propeller, or part thereof between the time
that compliance with paragraphs (b)(2) through
(b)(4) of this section is shown for that aircraft, aircraft engine, propeller, or part thereof and the time
that it is presented to the FAA for test.
(b) Each applicant must make all inspections and
tests necessary to determine—
(1) Compliance with the applicable airworthiness,
aircraft noise, fuel venting, and exhaust emission
requirements;
(2) That materials and products conform to the
specifications in the type design;
(3) That parts of the products conform to the
drawings in the type design; and

61a
(4) That the manufacturing processes, construction
and assembly conform to those specified in the type
design.
14 C.F.R. § 21.93. Classification of changes in
type design.
(a) In addition to changes in type design specified in
paragraph (b) of this section, changes in type design
are classified as minor and major. A “minor change” is
one that has no appreciable effect on the weight, balance, structural strength, reliability, operational characteristics, or other characteristics affecting the airworthiness of the product. All other changes are
“major changes” (except as provided in paragraph (b)
of this section).
(b) For the purpose of complying with Part 36 of this
chapter, and except as provided in paragraphs (b)(2),
(b)(3), and (b)(4) of this section, any voluntary change
in the type design of an aircraft that may increase the
noise levels of that aircraft is an “acoustical change”
(in addition to being a minor or major change as classified in paragraph (a) of this section) for the following
aircraft:
(1) Transport category large airplanes.
(2) Jet (Turbojet powered) airplanes (regardless of
category). For airplanes to which this paragraph
applies, “acoustical changes” do not include changes
in type design that are limited to one of the
following—
(i) Gear down flight with one or more retractable
landing gear down during the entire flight, or

62a
(ii) Spare engine and nacelle carriage external to
the skin of the airplane (and return of the pylon
or other external mount), or
(iii) Time-limited engine and/or nacelle changes,
where the change in type design specifies that the
airplane may not be operated for a period of more
than 90 days unless compliance with the applicable acoustical change provisions of Part 36 of this
chapter is shown for that change in type design.
(3) Propeller driven commuter category and small
airplanes in the primary, normal, utility, acrobatic,
transport, and restricted categories, except for
airplanes that are:
(i) Designated for “agricultural aircraft operations” (as defined in § 137.3 of this chapter, effective January 1, 1966) to which § 36.1583 of this
chapter does not apply, or
(ii) Designated for dispensing fire fighting materials to which § 36.1583 of this chapter does not
apply, or
(iii) U.S. registered, and that had flight time prior
to January 1, 1955 or
(iv) Land configured aircraft reconfigured with
floats or skis. This reconfiguration does not permit
further exception from the requirements of this
section upon any acoustical change not enumerated in § 21.93(b).
(4) Helicopters except:
(i) Those helicopters that are designated exclusively:

63a
(A) For “agricultural aircraft operations”, as
defined in § 137.3 of this chapter, as effective on
January 1, 1966;
(B) For dispensing fire fighting materials; or
(C) For carrying external loads, as defined in
§ 133.1(b) of this chapter, as effective on
December 20, 1976.
(ii) Those helicopters modified by installation or
removal of external equipment. For purposes of
this paragraph, “external equipment” means any
instrument, mechanism, part, apparatus, appurtenance, or accessory that is attached to, or
extends from, the helicopter exterior but is not
used nor is intended to be used in operating or
controlling a helicopter in flight and is not part of
an airframe or engine. An “acoustical change”
does not include:
(A) Addition or removal of external equipment;
(B) Changes in the airframe made to accommodate the addition or removal of external equipment, to provide for an external load attaching
means, to facilitate the use of external equipment or external loads, or to facilitate the safe
operation of the helicopter with external equipment mounted to, or external loads carried by,
the helicopter;
(C) Reconfiguration of the helicopter by the
addition or removal of floats and skis;
(D) Flight with one or more doors and/or
windows removed or in an open position; or
(E) Any changes in the operational limitations
placed on the helicopter as a consequence of the
addition or removal of external equipment,

64a
floats, and skis, or flight operations with doors
and/or windows removed or in an open position.
(5) Tiltrotors.
(c) For purposes of complying with part 34 of this
chapter, any voluntary change in the type design of the
airplane or engine which may increase fuel venting or
exhaust emissions is an “emissions change.”
14 C.F.R. § 21.97. Approval of major changes in
type design.
(a) An applicant for approval of a major change in
type design must—
(1) Provide substantiating data and necessary
descriptive data for inclusion in the type design;
(2) Show that the change and areas affected by the
change comply with the applicable requirements of
this subchapter, and provide the FAA the means by
which such compliance has been shown; and
(3) Provide a statement certifying that the
applicant has complied with the applicable requirements.
(b) Approval of a major change in the type design of
an aircraft engine is limited to the specific engine
configuration upon which the change is made unless
the applicant identifies in the necessary descriptive
data for inclusion in the type design the other
configurations of the same engine type for which
approval is requested and shows that the change is
compatible with the other configurations.

65a
14 C.F.R. § 21.113. Requirement for supplemental type certificate.
(a) If a person holds the TC for a product and alters
that product by introducing a major change in type
design that does not require an application for a new
TC under § 21.19, that person must apply to the FAA
either for an STC, or to amend the original type
certificate under subpart D of this part.
(b) If a person does not hold the TC for a product and
alters that product by introducing a major change in
type design that does not require an application for a
new TC under § 21.19, that person must apply to the
FAA for an STC.
(c) The application for an STC must be made in the
form and manner prescribed by the FAA.
14 C.F.R. § 21.115. Applicable requirements.
(a) Each applicant for a supplemental type certificate
must show that the altered product meets applicable
requirements specified in § 21.101 and, in the case of
an acoustical change described in § 21.93(b), show
compliance with the applicable noise requirements of
part 36 of this chapter and, in the case of an emissions
change described in § 21.93(c), show compliance with
the applicable fuel venting and exhaust emissions
requirements of part 34 of this chapter.
(b) Each applicant for a supplemental type certificate
must meet §§ 21.33 and 21.53 with respect to each
change in the type design.

66a
14 C.F.R. § 21.117. Issue of supplemental type
certificates.
(a) An applicant is entitled to a supplemental type
certificate if the FAA finds that the applicant meets
the requirements of §§ 21.113 and 21.115.
(b) A supplemental type certificate consists of—
(1) The approval by the FAA of a change in the type
design of the product; and
(2) The type certificate previously issued for the
product.
14 C.F.R. § 183.41. Applicability and definitions.
(a) This subpart contains the procedures required to
obtain an Organization Designation Authorization,
which allows an organization to perform specified
functions on behalf of the Administrator related to
engineering, manufacturing, operations, airworthiness, or maintenance.
(b) Definitions. For the purposes of this subpart:
Organization Designation Authorization (ODA)
means the authorization to perform approved functions on behalf of the Administrator.
ODA Holder means the organization that obtains
the authorization from the Administrator, as identified in a Letter of Designation.
ODA Unit means an identifiable group of two or
more individuals within the ODA Holder’s organization that performs the authorized functions.

67a
[EXCERPTS]
70 Fed. Reg. 59,932
Rules and Regulations
Department of Transportation
Federal Aviation Administration
14 CFR Parts 21, 121, 135, 145, and 183
[Docket No. FAA-2003-16685;
Amendment Nos. 21-86, 121-311,
135-97, 145-23, and 183-12]
RIN 2120-AH79
Establishment of Organization
Designation Authorization Program
Thursday, October 13, 2005
AGENCY: Federal Aviation Administration (FAA),
DOT.
ACTION: Final rule.
SUMMARY: This final rule establishes the Organization Designation Authorization (ODA) program. The
ODA program expands the scope of approved tasks
available to organizational designees; increases the
number of organizations eligible for organizational
designee authorizations; and establishes a more comprehensive, systems-based approach to managing
designated organizations. This final rule also sets
phaseout dates for the current organizational designee
programs, the participants in which will be transitioned into the ODA program. This program is needed
as the framework for the FAA to standardize the
operation and oversight of organizational designees.
The effect of this program will be to increase the
efficiency with which the FAA appoints and oversees
designee organizations, and allow the FAA to

68a
concentrate its resources on the most safety-critical
matters.
DATES: This amendment becomes effective November
14, 2005. Affected parties, however, do not have to
comply with the information collection requirements
of §§ 183.43, 183.45, 183.53, 183.55, 183.57, 183.63, or
183.65 until the control number assigned by the Office
of Management and Budget (OMB) for this information collection requirement is published in the
Federal Register. Publication of the control number
notifies the public that OMB has approved this
information collection requirement under the Paperwork Reduction Act of 1995.
FOR FURTHER INFORMATION CONTACT: For
technical issues, Ralph Meyer, Delegation and Airworthiness Programs Branch, Aircraft Engineering
Division (AIR-140), Aircraft Certification Service,
Federal Aviation Administration, 6500 S. MacArthur
Blvd., ARB Room 308, Oklahoma City, OK, 73169;
telephone (405) 954-7072; facsimile (405) 954-2209,
e-mail ralph.meyer@faa.gov. For legal issues, Karen
Petronis, Office of the Chief Counsel, Regulations
Division (AGC-200), Federal Aviation Administration,
800 Independence Avenue, SW., Washington, DC
20591; telephone (202) 267-3073; facsimile (202) 2677971; e-mail karen.petronis@faa.gov.
SUPPLEMENTARY INFORMATION:
* * *
Authority for This Rulemaking
The FAA’s authority to issue rules about aviation
safety is found in Title 49 of the United States Code.
Subtitle I, Section 106 describes the authority of the
FAA Administrator. Subtitle VII, Aviation Programs,

69a
describes in more detail the scope of the agency’s
authority.
This rulemaking is promulgated under the authority described in Subtitle VII, Part A, Chapter 447—
Safety Regulation, Section 44702—Issuance of Certificates. Under paragraph 44702(d), the FAA Administrator may delegate to a qualified private person a
matter related to issuing certificates, or related to the
examination, testing, and inspection necessary to
issue a certificate he is authorized by statute to issue
under § 44702(a). Under paragraph (d), the Administrator is empowered to prescribe regulations and
other materials necessary for the supervision of
delegated persons. This regulation is within the scope
of that authority in that it establishes a
comprehensive program for the designation of
organizations in 14 CFR part 183.
Background
History of Designation Programs
Since at least 1927, the federal government has used
private persons to examine, test and inspect aircraft
as part of the system for managing aviation safety.
The current system of delegations has been evolving
since the need for assistance by private persons was
recognized over 70 years ago. Beginning in the 1940s,
the FAA’s predecessor agency, the Civil Aeronautics
Administration (CAA) established programs to
appoint designees to perform certain tasks for airman
approvals, airworthiness approvals and certification
approvals. These include the Designated Engineering
Representative (DER), Designated Manufacturing
Inspection Representative (DMIR), and Designated
Pilot Examiner (DPE) programs.

70a
In the 1950s, the rapid expansion of the aircraft
industry led to the adoption of the Delegation Option
Authorization (DOA) program to supplement the
agency’s limited resources for certification of small
airplanes, engines and propellers. As the first program
that delegated authority to an organization rather
than an individual, DOA was intended to take
advantage of the experience and knowledge inherent
in a manufacturer’s organization. Currently, DOAs
are authorized for certification and airworthiness
approvals for the products manufactured by the
authorization holder.
The Federal Aviation Act of 1958 established the
Federal Aviation Agency and codified the authority of
the Administrator to delegate certain matters in
section 314 of that Act. When that statute was
recodified in the 1990s, the delegation authority was
placed in 49 U.S.C. 44702(d) without substantive
change to the authority of the Administrator.
The 1960s saw the creation of the Designated
Alteration Station (DAS) Program, which was
intended to reduce delays in issuing supplemental
type certificates (STCs) by allowing the approved
engineering staffs of repair stations to issue STCs. As
adopted, the DAS program allows eligible air carriers,
commercial operators, domestic repair stations and
product manufacturers to issue STCs and related
airworthiness certificates.
In the 1970s the FAA reviewed its delegated
organization programs, which then allowed the
approval of major alteration data by a delegated
organization, but not approval of major repair data.
This review lead to the adoption of Special Federal
Aviation Regulation (SFAR) 36 in 1978 to allow
eligible air carriers, commercial operators, and domes-

71a
tic repair stations to develop and use major repair data
without FAA approval of the data.
In the 1980s, the FAA established the Designation
Airworthiness Representative (DAR) program to expand the airworthiness certification functions that
individual designees may perform. At the same time,
we allowed for organizations to serve as DARs, in a
program known as Organizational Designated Airworthiness Representatives (ODARs).
Since the formation of the first organizational
designee programs, organizational designees have
gained significant experience in aircraft certification
matters, and the FAA has gained significant experience in managing these designee programs. We have
found that the quality of the approvals processed by
these organizations equals those processed by the
FAA. Delegation of tasks to these organizations has
allowed the FAA to focus our limited resources on
more critical areas.
Status of Designees
In understanding these programs, we consider it
essential to remember that designees have a unique
status. While we refer to these persons and organizations informally as “designees”, under part 183 they
are referred to as “representatives of the Administrator.”
When acting as a representative of the Administrator, these persons or organizations are required to
perform in a manner consistent with the policies,
guidelines, and directives of the Administrator. When
performing a delegated function, designees are legally
distinct from and act independent of the organizations
that employ them. The authority of these representatives to act comes from an FAA delegation and not a

72a
certificate. As provided by statute, the Administrator
may at any time and for any reason, suspend or revoke
a delegation. This is true even though some parts of
the delegation regulations in part 183 and elsewhere
refer to kinds of certificates that denote the authority
granted.
An ODA issued under this program is a delegation
made under section 44702(d), not a statutorily authorized certificate issued under section 44702(a). The
authority of the Administrator to suspend, revoke, or
withhold ODA authorization is not subject to appeal to
the National Transportation Safety Board.
ODA Program Overview
The FAA is adopting the ODA program as a means
to provide more effective certification services to its
customers. This final rule adopts the regulatory basis
of the ODA program. Companion FAA orders, similar
to the draft Order made available for review, will
describe the specifics of the program and provide
guidance for FAA personnel and for organizations to
which we grant an ODA. These orders will also provide
information to FAA personnel on how to qualify,
appoint, and oversee organizations in the ODA program.
As aviation industry needs continue to expand at a
rate exceeding that of FAA resources, the need for the
ODA program has become more apparent. According
to a 1993 report by the General Accounting Office
(GAO/RCED-93-155), the FAA’s certification work has
increased five-fold over the last 50 years. The ODA
program is a consolidation and improvement of the
piecemeal organizational delegations that have developed on an “as needed” basis over the last half century.
As the FAA’s dependence on designees has increased,

73a
so has the need to oversee designated organizations
using a single, flexible set of procedures and a systems
approach to management. Using our experience with
both individual and organizational designees, we have
designed the ODA program with these criteria in
mind.
The ODA program improves the FAA’s ability to
respond to our steadily increasing workload by
expanding the scope of authorized functions of FAA
organizational designees, and by expanding eligibility
for organizational designees. One way this program
expands eligibility is by eliminating the requirement
that an organization hold some type of FAA certificate
before it would qualify for designation authorization.
The ODA program also allows the FAA to delegate
any statutorily authorized functions to qualified
organizations. Expansion of the available authorized
functions will reduce the time and cost for these
certification activities.
While our current delegations are limited to such
organizations as manufacturers, air carriers, commercial operators, and repair stations, this rule formalizes
the delegation of functions to any qualified organization. Accordingly, an organization with demonstrated
competence, integrity, and expertise in aircraft certification functions is eligible to apply for an ODA.
Creation of the ODA program aids the expansion of
the designee system by addressing the delegation of
more functions related to aircraft certification, and
new functions pertaining to certification and authorization of airmen, operators, and air agencies. For
general aviation operations, the rule allows an ODA
Unit member to issue airman certificates or authorizations under 14 CFR parts 61, 63, or 91. Additionally,

74a
the rule allows designated organizations to find compliance or conduct functions leading to the issuance of
certificates or authorizations for any statutorily
authorized function, including—
• Rotorcraft external load operations under 14
CFR part 133;
• Agricultural operations under 14 CFR part
137;
• Air agencies operations under 14 CFR part
141; and
• Training centers operators under 14 CFR part
142 (air carrier functions excluded).
Nothing in the establishment of the ODA program
changes any authority or responsibility for compliance
with the certification, airworthiness or operational
requirements currently in place, such as part 21 or
part 121. No current safety requirements are being
removed or relaxed. The ODA program does not
introduce any type of self-certification.
An Organization Designation Authorization
includes both an ODA Holder and an ODA Unit. The
ODA Holder is the parent organization to which the
FAA grants an ODA Letter of Designation. The ODA
Unit is an identifiable unit of two or more individuals
within the ODA Holder’s organization that performs
the authorized functions. The regulations specify
separate requirements for the ODA Holder and the
ODA Unit.
Because the ODA program eliminates the requirement that an applicant hold an FAA certificate, organizations consisting of consultant engineering and
inspection personnel could be eligible for an ODA.
Under such circumstances, it is possible the ODA

75a
Holder would have the same composition as the ODA
Unit.
ODA Program Policy
As noted earlier in this preamble, FAA orders will
outline the specifics of the ODA program and provide
guidance for both FAA personnel and for organizations
that obtain an ODA. These orders will describe the
authorized functions for aircraft-related approvals,
such as type certificates and airworthiness certificates, and certain operations-related approvals like
airman certificates. While the regulations contain the
general requirements of the ODA program, the orders
will provide the administrative details. Providing the
specifics in orders allows for flexibility to expand or
revise the details of the ODA program without further
rulemaking, especially since every type of delegated
function that may be appropriate for an ODA Unit
cannot be foreseen.
In addition to approved delegated functions and the
eligibility requirements for delegated functions, the
orders address the specific selection, appointment, and
oversight procedures the FAA will follow in managing
ODA Holders. Additional ODA program details may be
described in other FAA orders or policies.
* * *

76a
[EXCERPTS]
ORDER
8100.15
ORGANIZATION DESIGNATION
AUTHORIZATION
PROCEDURES
* * *
8/18/06
DEPARTMENT OF TRANSPORTATION
FEDERAL AVIATION ADMINISTRATION
* * *
CHAPTER 1. INTRODUCTION
1-1. PURPOSE. This order outlines the Federal
Aviation Administration’s (FAA) Organization Designation Authorization (ODA) program. Under this
program, we (the FAA) can delegate certain types of
authority to organizations. We wrote this order for
Aircraft Certification Service (AIR) and Flight Standards Service (AFS) personnel, who manage delegated
organizations. We also wrote this for organizations
granted an ODA to act on the FAA’s behalf. This order
addresses how to qualify, appoint, and oversee
organizations in the ODA program.
* * *
CHAPTER 3. QUALIFICATIONS,
RESPONSIBILITIES, AND AUTHORITY
* * *
3-7. MEMORANDUM OF UNDERSTANDING.
a. ODA Holder’s Commitment. An ODA holder
agrees to use the same care, diligence, judgment, and

77a
responsibility when performing the authorized functions as the FAA would use in performing the function.
This commitment starts at the senior management
level of the ODA holder and extends through the ODA
administrator, ODA unit, and the rest of the applicant’s organization. As proof of that commitment,
senior management of the organization and the FAA
managing office(s) will sign a memorandum of understanding (MOU) that outlines the charter, authority,
and responsibility of the ODA holder.
b. Preparing an MOU. The prospective OMT and
ODA holder jointly prepare the MOU. The ODA
holder’s senior management and FAA’s managing
office(s) must sign the MOU before issuing the ODA.
Also, any time a signatory of the MOU changes, the
replacement must sign a revised MOU. If an ODA
holder’s new senior management refuses to sign the
MOU, we must terminate the ODA. Appendix 1, figure
14 of this order contains an example of an acceptable
MOU. All personnel within the ODA holder that
manage ODA unit members in any capacity must read
and understand the MOU.
* * *
CHAPTER 11. SUPPLEMENTAL TYPE
CERTIFICATION FUNCTIONS
* * *
11-3. FUNCTIONS. Figures 2-2 and 2-3 of this order
list the ODA function codes. An STC ODA holder must
be able to perform all of the functions required for the
alterations for which it may issue an STC. The STC
ODA holder’s procedures manual must identify the
ODA holder’s specific authorized functions and limitations. The available STC ODA functions are:

78a
a. Approve Technical Data or Find Compliance to
Airworthiness Standards (function code 11010). An
STC ODA unit may approve type design and substantiation data, including changes to the data. This
includes:


Approving technical data such as test plans,
test data, or analyses



Witnessing tests



Reviewing test data to ensure that the test was
conducted in accordance with the test plan



For analytical data, ensuring that an appropriate and validated analytical model or system
was used

b. Issue STCs and/or Amendments (function code
11020). An STC ODA unit may issue an STC if it finds
that the requirements of 14 CFR §§ 21.113 and 21.115
for issuance of an STC are met.
c. Approve Operational or Repair Information
(function code 11040). An STC ODA unit may approve
operational information. The specific authority must
be defined in the procedures manual. Under this function code the ODA unit may approve an Aircraft Flight
Manual Supplement and any associated information
such as cargo loading or weight and balance (including
revisions) for an STC it issues.
d. Approve Airworthiness Limitations Information
(function code 11050). An STC ODA unit may approve
changes to airworthiness limitations associated with
an STC it issues.
e. Issue Airworthiness Certificates and Approvals.
An STC ODA unit may perform the following functions. The ODA unit must comply with 14 CFR part

79a
21; FAA Order 8130.2; Order 8130.21; Order 8130.29,
and this order.
(1) Issue Standard Airworthiness Certificate
(function code 11061). This includes amending a
standard airworthiness certificate for a U.S.registered aircraft.
(2) Issue Special Airworthiness Certificates
(function code 11062) in the experimental category
for the purpose of performing research and development, showing compliance with FAA regulations,
conducting crew training, and conducting market
surveys.
(3) Issue Special Flight Permits (function code
11066) for U.S.-registered aircraft for a purpose
outlined in 14 CFR §§ 21.197 (a)(1), (a)(4), or (b).
(4) Issue Special Airworthiness Certificates
(function code 11067) for primary category aircraft.
(5) Issue Special Airworthiness Certificates
(function code 11068) for restricted category aircraft.
(6) Issue a Replacement for a Lost, Stolen, or
Mutilated Standard or Special Airworthiness Certificate (function code 110610) if the proper documentation can be obtained from the applicant.
NOTE: This function is limited to an aircraft
being modified under an STC project. This function may also include the replacement of a certificate when the aircraft registration number
changes.
f. Establish Conformity Inspection Requirements
(function code 11070). An STC ODA unit may set
requirements for the extent and kind of conformity

80a
inspections required, and may issue a Request for
Conformity or TIA, as applicable.
g. Determine Conformity of Parts and Test Articles
(function code 11080). An STC ODA unit may determine whether engines, propellers, products, components, parts, appliances, or test articles conform to the
design data.
h. Determine Conformity of Test Setup (function
code 11090). An STC ODA unit may determine
whether test setups conform to the design data as
required by approved test plans.
i. Determine Conformity for Installation and TIA
Inspections on a Product (function code 11100). An
STC ODA unit may determine whether installations
of components, parts, or appliances on a product
conform to design data and perform TIA inspections.
j. Perform Compliance Inspections (function code
11110). An STC ODA unit may perform compliance
inspections to determine if products comply with the
14 CFR.
k. Perform Approvals in Support of TC ODA Holder
Projects (function code 11160). An STC ODA unit may
supply data approvals and conformity determinations
that are used within a TC ODA holder’s system. These
approvals are limited to the types of approvals
included in the ODA holder’s STC authority. The
procedures manual must specify the types of
airworthiness standards and products for which this
authority applies.
* * *
11-7. SUPPLEMENTAL TYPE CERTIFICATION
PROGRAMS. A STC ODA holder must use the same
process the FAA uses for standard certification pro-

81a
grams (see FAA Order 8110.4 and AC 21-40,
Application Guide for Obtaining a Supplemental Type
Certificate).
a. STC Program Considerations. The ODA is based
upon the ODA unit’s demonstrated experience and
capability to determine that alteration designs comply
with the airworthiness standards and are in a condition for safe operation.
(1) Working with Other STC Applicants. An STC
ODA unit may issue an STC to an applicant other
than the ODA holder. When issuing the STC to
another applicant, the ODA holder must act as an
agent for the applicant. The ODA holder’s program
notification letter must include a letter from the
STC applicant noting that the ODA holder is acting
on the applicant’s behalf and that the applicant
understands the responsibilities of an STC holder.
(2) Data Development Responsibilities. An STC
applicant must provide substantiating data to show
compliance with the applicable airworthiness
requirements.
(a) An ODA unit may approve a design only
when the ODA unit has a complete understanding
of the design, and takes full responsibility for the
integrity and completeness of compliance findings
for the design and installation of the alteration.
An ODA holder, as the STC applicant or its agent,
is responsible for overall alteration development,
including design integration, development of
design and substantiation data, prototype installation, and certification. An ODA holder must
substantiate compliance with all airworthiness
requirements for the design and installation of the
systems and all components (including items pre-

82a
viously approved and used in other applications)
involved in the STC.
(b) Lower level design/substantiation data
developed by suppliers is acceptable, if the ODA
holder is involved in all aspects of showing
compliance for the integration of the design and
substantiation data.
(c) An ODA holder must review and validate
that all data developed by other parties apply to
the alteration and provide necessary substantiation of compliance with airworthiness standards.
Proper compliance with the airworthiness standards can be established only when type certification requirements are considered early in the
design development process. This mandates early
involvement by an ODA holder in any program
leading to issuance of an STC. This responsibility
is in addition to the ODA unit’s responsibility
when making the findings of compliance for the
project.
(3) Additional Party Involvement. Projects that
involve numerous parties in the design or manufacture of parts require additional scrutiny on the part
of both the ODA unit and the OMT. The OMT must
evaluate the capability of an ODA holder to perform
such projects, considering the experience and
competence of the other parties involved, during the
review of the program notification letter.
(4) Additional Knowledge. In addition to showing
compliance to the airworthiness standards, an ODA
holder is also responsible for finding that the altered
product is of a proper design for safe operation. In
order to determine this, the ODA holder must
consider the product manufacturer’s design philoso-

83a
phy, principles, and operational assumptions. Such
information may be obtained by reviewing available
data such as; original type design data, type certificate data sheets, flight manuals, flight crew operations manuals, or by past experience of the ODA
unit. An ODA holder must also consider the procedures employed by the operator of the product and
the impact of any alterations previously made to the
product. The OMT should assess the ODA unit’s
experience and knowledge of these considerations
when reviewing program notification letters and
determining the level of FAA involvement in a
project.
b. Adherence to Policy Requirements. As a representative of the FAA, an ODA holder is expected to
comply with any certification guidance and policy
applicable to the project. Each ODA holder must stay
informed of the latest policies applicable to the projects it performs and propose certification plans that
conform to these policies. Certification policies can be
reviewed on the internet at http://www.airweb.faa.
gov/rgl.
(1) Program Notification Letter. The ODA administrator must submit a PNL to the OMT lead early
in the project containing the following information.
If the project scope or schedule is significantly
revised, the ODA administrator must notify the
FAA and obtain concurrence with the changes from
the OMT before proceeding with the project. By
submitting a PNL, the ODA unit is attesting that it
has, or can obtain, the appropriate knowledge and
understanding of the product manufacturer’s design
philosophy, principles, and operational assumptions
required to determine compliance with the airworthiness standards and determine that no unsafe

84a
feature or characteristic exists in the altered product. The PNL must:
(a) Include an FAA Form 8110-12.
(b) Include a certification plan that contains
the information described in appendix 2 of this
order.
(c) Include a conformity inspection plan as
shown in appendix 1, figure 15 of this order.
(d) Identify any novel or unusual aspects of the
program including any international aspects, or
foreign airworthiness authorities involved.
(e) Identify any design changes that are considered a “significant project” according to the definition in FAA Order 8110.4.
(f) Specify who will perform the design (excluding certification activities), if other than the ODA
holder, the scope of any other party’s involvement
in the design, and provide a description of how the
ODA holder will manage the other parties’ activities. The ODA holder must ensure that all certification requirements are met and managed (e.g.,
periodic contact/meetings with the company performing the design work to monitor design progress, issues of concern, and proposed modifications to the design and/or schedule).
c. Program Notification Letter Coordination.
(1) The OMT lead will coordinate with the OMT
for review and concurrence with the original PNL,
and any later supplements or changes. The managing ACO will also coordinate with the type certificate managing ACO, as appropriate. In addition, the
ACO is responsible for the normal directorate
project notification requirements.

85a
(2) As part of the OMT review of the PNL and the
associated certification and conformity plans, the
OMT will consider whether the ODA holder has, or
can obtain, the appropriate knowledge and understanding of the product manufacturer’s design philosophy, principles, operational assumptions, and
actual operator procedures. The OMT will nonconcur with projects that it determines the ODA
holder is not qualified to perform.
(3) If a project is to be performed at an off-site
location, the OMT will coordinate with the off-site
facility’s principal maintenance inspector. This is to
verify that the facility has experience with the types
of alterations on the specific product(s) (make and
model) that the project involves. The OMT will also
consider its own ability to oversee and participate in
the project, based on the facility’s location. The OMT
may authorize a project only if:
(a) The work location does not prevent the
OMT’s necessary involvement and oversight.
(b) The ODA holder has sufficient experience
and knowledge to manage the off-site project.
(c) The off-site facility is authorized to approve
the altered product for return to service.
d. Specific Findings. The FAA will make specific
findings of compliance as follows:
(1) Determine compliance in areas reserved for
the FAA, such as regulatory interpretations and
equivalent level of safety findings. The ODA holder
must request concurrence on the application of all
equivalent level of safety findings in writing.
(2) Determine compliance for the emissions and
noise requirements of 14 CFR parts 34 and 36.

86a
(3) Determine compliance in areas evaluated by
the AEG. These include Instructions for Continued
Airworthiness, evaluation of operational suitability,
changes to the Master Minimum Equipment List,
Aircraft Flight Manual, Flight Crew Operating
Manual, crew qualifications, and emergency evacuation demonstrations.
(4) Determine compliance, when necessary, in
areas involving new design concepts including the
identification of those areas that require the formulation of special conditions in accordance with 14
CFR §21.101(d) or areas where the ODA holder has
no prior experience.
(5) Review data, tests, or technical evaluations if
the ODA holder has not demonstrated a satisfactory
capability during similar projects.
(6) Review areas where service difficulties have
resulted from previous ODA holder approvals.
(7) Participate in compliance findings in areas
involving known safety-related problems. For example, the ACO should review modifications affecting
areas that have previously been the subject of
Airworthiness Directive action to ensure that the
proposed modification does not adversely affect the
Airworthiness Directive-related change.
e. Program Notification Letter Response. The OMT
lead will respond to the ODA holder formally, in
writing, after receiving the PNL. The OMT lead must
respond within 30 days unless the ODA holder agrees
to a later response. The response must include:
(1) The OMT’s concurrence or non-concurrence
with the proposed certification and conformity
plans.

87a
(2) Acknowledgement that the certification basis
is acceptable, including any limitations, conditions,
or objections.
(3) The names and other contact information for
FAA engineers, manufacturing inspectors, AEG
focal points, and administrative staff assigned to the
project.
(4) Identify specific FAA findings and involvement in the project and require the ODA holder to
provide adequate notice to the FAA of activities in
which the FAA will participate. The FAA response
should include direction to the ODA unit members
for approval or recommend approval on FAA Form
8100-9.
(5) The requirement that the ODA holder must
notify/coordinate with the OMT in a timely manner
if the project’s scope and/or schedule is significantly
revised. Significant changes that should be reported
include:
(a) A change in any of the parties involved, or
the level of their involvement, in the design or
installation of the alteration.
(b) A changes in the location where the
prototype installation will be performed.
(c) Any change in the schedule of activities in
which the FAA will participate.
(d) Any certification methodology change.
(e) Any other change deemed appropriate by
the managing ACO.
NOTE: The OMT should determine any other
types of change that require notification, based on
the ODA holder’s capability and project types. The

88a
OMT and the ODA administrator should ensure
that they understand the types of schedule/project
scope changes that must be reported.
f. STC Board Meetings. As applicable, the ODA
holder will hold STC board meetings in accordance
with FAA Order 8110.4. The ODA administrator will
chair preliminary, interim, pre-flight, and final STC
board meetings on major projects. The ODA administrator will also chair any other meetings necessary to
meet the objectives in these procedures. The ODA
holder must coordinate scheduling of the meetings
with the FAA. During the meetings, the FAA will:
(1) Establish the applicable certification basis.
(2) Identify any areas requiring formulation of
special conditions.
(3) Offer special attention, information, and guidance to address new design concepts, service
difficulties, FAA policy, and the current state-of-theart considerations.
(4) Establish those areas of the STC program for
which the FAA will make specific findings.
(5) Coordinate program scheduling necessary to
accomplish the required FAA participation.
(6) Establish that areas requiring FAA participation have been satisfactorily completed by the FAA.
(7) Review the certification plan and conformity
inspection plan.
(8) Review the applicable noise and emission
requirements and establish the nature and extent of
tests and substantiation expected from the ODA
holder.

89a
g. Engineering Approval. Engineering or flight test
ODA unit members determine compliance with the
FAA regulations. The procedures manual must contain the specific forms and procedures used to determine and document compliance. The procedures manual must identify procedures for developing and
approving the conformity inspection plan. The ODA
unit must use the proper FAA forms. Engineering or
flight test ODA unit members must approve the
following records, as applicable, to document compliance:
(1) FAA Form 8100-9 (appendix 1, figure 5 of this
order) for compliance findings.
(2) FAA Form 8120-10.
(3) FAA Form 8110-1.
(4) Supplemental Type Inspection Report (part
2), as applicable.
(5) AFM and AFM supplements, as required.
h. Compliance Findings for Equivalent Safety
Provisions. After the FAA defines any equivalent
safety provisions, engineering and flight test ODA
unit members may determine whether the product
complies with them. The ODA unit must submit
equivalent safety finding results in writing to the
OMT for approval.
i. Conformity. Inspection ODA unit members
inspect products to determine whether they conform
to type design, document results of the inspections,
and establish if the product is airworthy.
(1) Prior to any FAA conformity inspection, the
product or article must be inspected in accordance
with 14 CFR §21.33 and an FAA Form 8130-9 must
be completed to satisfy 14 CFR §21.53. Complex sub-

90a
assemblies may require issuance of additional
Forms 8130-9. The ODA unit member determining
conformity for the FAA may not sign the Form 81309. The procedures manual must identify the specific
forms and procedures used to document inspection
results. See FAA Order 8110.4 for examples of the
forms and instructions on how to complete them.
The procedures manual must identify the procedures used to develop and approve the conformity
inspection plan.
(2) Before any compliance inspection or test, an
ODA member must determine that the end product,
in-process parts, or test articles conform with the
type design. They must document conformity on the
following forms (as applicable):


FAA Form 8100-1



FAA Form 8110-26 (part 1), as applicable



FAA Form 8130-3



FAA Form 8130-9

j. Aircraft Evaluation Group Functions.
(1) Instructions for Continued Airworthiness.
Plans regarding ICA must be coordinated with the
AEG OMT representative early in the program to
ensure that ICA development and acceptance does
not delay the program. The AEG OMT representative will determine the level of his involvement
during the program notification letter review. The
ODA unit must ensure the ICA is accepted upon
delivery of the altered product or prior to issuance of
the first standard or restricted airworthiness certificate for an altered aircraft, whichever occurs later.
NOTE: Delegation of ICA acceptance will be provided for in the next revision to this order.

91a
(2) Determinations of operational suitability,
Master Minimum Equipment List revisions, crew
training, etc., may not be delegated to an ODA
holder. The managing ACO must coordinate with
the appropriate AEG to ensure that all program
requirements for which the AEG is responsible are
satisfied.
k. Issuing Supplemental Type Certificates. Prior to
issuing an STC, the ODA holder must complete FAA
Form 8100-11 (see appendix 1, figure 11 of this order)
certifying that the STC design complies with FAA
regulations. The ODA holder must prepare the STC in
accordance with FAA Order 8110.4.
NOTE: The ACO will provide the ODA holder STC
numbers on either a project-by-project basis or as
a block of numbers for the ODA Unit’s use. The
numbers will be issued in accordance with FAA
Order 8110.4. Each STC issued by an ODA unit
must have a “-D” placed after the STC number.
For example, SA00125AT-D would be the 125th
STC issued through the Atlanta ACO on a small
airplane and have been issued by an STC ODA
unit. The ACO must include STCs issued by the
ODA unit in its monthly reports for the STC
summary as described in FAA Order 8110.4.
l. Submission of Data after Certification. The ODA
holder must submit the following data within 30
calendar days of the STC issuance date. This data and
all project related correspondence must be retained by
the ACO:
(1) A statement of completion certifying that the
design article satisfies the FAA regulations.
(2) A paper copy of the signed STC and an electronic copy.

92a
(3) A copy of the flight manual supplement.
(4) Any other data identified in the OMT’s
response to the program notification letter or
required by the procedures manual.
m. Transfer of STCs. Only the FAA may transfer an
STC. An ODA unit may not transfer an STC by
reissuing it in another party’s name. An ODA holder
that wishes to transfer an STC to another party must
follow the standard procedures for transfer of a type
certificate (see 14 CFR §21.47 and FAA Order 8110.4).
n. Amendment of an Existing STC. Any STC
amendment issued by an ODA holder requires submittal of a program notification letter. Any amendment to
an STC must be coordinated with the ACO prior to its
issuance. If the ODA unit amends an STC originally
issued by the FAA, the ODA unit must include the
“-D” designation in the STC number.
* * *

